                                                                   EMPLOYMENT AND TRAINING

U.S. Department of Labor                                           ADMINISTRATION


                     Office of Inspector General—Office of Audit




                                                                   RECOVERY ACT: GREEN JOBS PROGRAM
                                                                   REPORTS LIMITED SUCCESS IN MEETING
                                                                   EMPLOYMENT AND RETENTION GOALS AS OF
                                                                   JUNE 30, 2012




                                                                                       Date Issued:   October 25, 2012
                                                                                    Report Number:    18-13-001-03-390
U.S. Department of Labor
Office of Inspector General                               October 2012
Office of Audit                                           Recovery Act: Green Jobs Program
                                                          Reports Limited Success in Meeting
                                                          Employment and Retention Goals as of
BRIEFLY…                                                  June 30, 2012
Highlights of Report Number: 18-13-001-03-390 to the
Assistant Secretary for Employment and Training.
                                                          WHAT OIG FOUND
WHY READ THE REPORT
                                                          As of June 30, 2012, with 88 percent of the extended
                                                          grant periods having elapsed, the impact of the
The Recovery Act provided $500 million for research,
                                                          Recovery Act Green Jobs training program has been
labor exchange, and job training projects to prepare
                                                          limited in terms of reported employment outcomes.
workers for careers in energy efficiency and renewable
                                                          Complicating the assessment of the program’s overall
energy. The main focus of the Green Jobs training
                                                          impact was the inability of sampled grantees to
program was to prepare individuals for jobs in Green
                                                          document between 24 percent and 44 percent of their
industry sectors.
                                                          reported employment outcomes.
On September 30, 2011 we issued a report entitled,
“Recovery Act: Slow Pace Placing Workers into Jobs        Out of a target of 81,254, grantees collectively reported
Jeopardizes Employment Goals of the Green Jobs            30,857 participants (38 percent) entered employment.
Program.” We reported that grantees might not be able     While grantees reported that 49 percent of participants
to meet their planned expenditures or goals for placing   who obtained jobs retained employment for at least
participants before grant periods expired.                6 months, the reported number retained of 11,613
                                                          represents only 16 percent of the planned retention goal
This is a follow-up audit that was conducted as part of   of 71,017. Moreover, 42,322 participants (52 percent)
our oversight responsibilities and in response to a       who completed training were incumbent workers,
request for an update on our previous audit from the      meaning the participants were already employed when
Honorable Darrell E. Issa, Chairman, House Oversight      they entered the program. Grantees were authorized to
and Government Reform Committee.                          train incumbent workers who needed training to secure
                                                          full-time employment, advance their careers, or retain
                                                          their current jobs. However, for the 81 incumbent
WHY OIG CONDUCTED THE AUDIT
                                                          workers we identified in our sample, we found no
                                                          evidence that they needed green job training for any of
Our overall audit objective was to assess the impact of
                                                          these purposes.
the Green Jobs training program by answering the
following questions:
                                                          Other issues that have a direct bearing on determining
                                                          the success of the program include: value of
1) Who was served and what training did participants
                                                          credentials, duration of training, impact of grant period
receive?
                                                          extensions, and limitations of available employment and
                                                          retention data.
2) What were the entered employment and retention
outcomes for participants?
                                                          WHAT OIG RECOMMENDED
                                                          We recommended that the Assistant Secretary for
READ THE FULL REPORT                                      Employment and Training develop and utilize lessons
To view the report, including the scope,                  learned from the Recovery Act Green Jobs training
methodology, and full agency response, go to:             program, and improve the quality of grantee reported
http://www.oig.dol.gov/public/reports/oa/2013/18-13-      performance data.
001-03-390.pdf.
                                                          In response to the draft report, the Assistant Secretary
                                                          for Employment and Training indicated that the audit
                                                          report did not fully capture the results of the program as
                                                          of June 30, 2012, but agreed to consider the OIG’s
                                                          recommendations to improve grant programs
                                                          performance.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                Recovery Act: Green Jobs Program
                                     Report No. 18-13-001-03-390
                                                         U.S. Department of Labor – Office of Inspector General




Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Who was served and what training did participants receive? .................................. 6

What were the employment and retention outcomes for participants? ................. 15

Exhibits
        Exhibit 1 Eight Sampled Grantees ...................................................................... 35
        Exhibit 2 Participant Characteristics ................................................................... 37
        Exhibit 3 Extended Green Job Training Grants .................................................. 39
        Exhibit 4 Disparate Goals Planned by Grantees ................................................ 41
        Exhibit 5 Grant Awards, Expenditures, and Training Outcomes for All
                  Grants as of June 30, 2012 .................................................................. 43

Appendices
        Appendix A Background ..................................................................................... 53
        Appendix B Objective, Scope, Methodology, and Criteria .................................. 55
        Appendix C Acronyms ........................................................................................ 59
        Appendix D Glossary .......................................................................................... 61
        Appendix E ETA Response to Draft Report ........................................................ 63
        Appendix F Acknowledgements ......................................................................... 67




                                                                               Recovery Act: Green Jobs Program
                                                                                    Report No. 18-13-001-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                Recovery Act: Green Jobs Program
                                     Report No. 18-13-001-03-390
                                           U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




                        Assistant Inspector General’s Report


October 25, 2012

Ms. Jane Oates
Assistant Secretary
 for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed by
President Obama on February 17, 2009. The purpose of the Recovery Act was to assist
those most impacted by the recession by creating and preserving jobs. The Recovery
Act provided $500 million for research, labor exchange, and job training projects to
prepare workers for careers in energy efficiency and renewable energy as described in
section 171(e)(1)(B) of the Workforce Investment Act (WIA) - also known as The Green
Jobs Act of 2007. The main focus of the Green Jobs program was to prepare individuals
for jobs in Green industry sectors through three separate training areas: State Energy
Section Partnership (SESP), Pathways Out of Poverty (Pathways), and Energy Training
Partnership (ETP).

Background: Office of Inspector General’s (OIG) Prior Audit Work

On September 30, 2011 we issued a report entitled, “Recovery Act: Slow Pace Placing
Workers into Jobs Jeopardizes Employment Goals of the Green Jobs Program,” report
number 18-11-004-03-390. This report was in response to a request from the Honorable
Charles E. Grassley, then Ranking Member of the Senate Committee on Finance.
Specifically, Senator Grassley requested an audit of Recovery Act funds spent on green
jobs, the definition used by the Department of Labor for what constitutes a green job,
and the number and duration of the jobs created pursuant to the funds expended.

We reported that grantees might not be able to meet their planned expenditures or
goals for placing participants before grant periods expired. In response to our report, the
Employment and Training Administration (ETA) stated it expected grantees’ performance
to increase significantly and all funds would be expended by September 30, 2013. Since
our report was issued, ETA extended 46 of the 63 Pathways and ETP grant periods of
performance set to expire in January 2012 from 2 months to 1 year to allow grantees
additional time to expend funds and assist participants with training and employment.
Furthermore, ETA extended 9 of the 34 SESP grants set to expire in

                                             1                     Recovery Act: Green Jobs Program
                                                                        Report No. 18-13-001-03-390
                                                  U.S. Department of Labor – Office of Inspector General



January 2013 by 5 to 6 months. Currently, all grants are scheduled to end by July 31,
2013.

Objective

We conducted this follow-up audit as part of our audit oversight responsibilities and in
response to a request for an update on our previous audit from the Honorable
Darrell E. Issa, Chairman, House Oversight and Government Reform Committee. Our
overall audit objective was to assess the impact of the Green Jobs training program by
answering the following questions: 1) Who was served and what training did participants
receive and 2) What were the entered employment and retention outcomes for
participants?

Scope and Methodology

We analyzed reported performance outcomes and expenditures for the universe of 97
training grants totaling $435.4 million based on grantee data as of June 30, 2012. 1 For
employment retention, we considered entered employment only for participants placed
on or before December 31, 2011, since this measure requires a participant to be
employed two quarters after the employment date. We also selected a statistical sample
of 8 grants totaling $40.1 million and covering 9,510 participants served. Fieldwork for
sampled grants was conducted prior to the release of June 2012 data. Therefore, for
our sampled grants, we reviewed March 31, 2012, training programs, expenditures and
performance outcomes. Onsite reviews were conducted for all sampled grants; and,
within each grant, participants were randomly selected for testing. During onsite
reviews, we reconciled costs and performance information reported to the general
ledger and other records provided by the grantee. While statistically selected, the
results of audit tests for the 463 participants selected at sampled grantees are only
projectable to the sample of 8 grantees. (See Exhibit 1 for the 8 grantees.)

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. While grantee entered
employment and retention data was limited in some cases, we believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Results In Brief

As of June 30, 2012, with 88 percent of the extended grant periods having elapsed, the
impact of the Recovery Act Green Jobs training program has been limited in terms of
reported employment outcomes. Complicating the assessment of the program’s overall

1
  Since grantees continue to update and report participant training and employment activity, we used real-
time data provided by ETA on August 21, 2012, representing performance outcomes as of June 30, 2012.
                                                     2                 Recovery Act: Green Jobs Program
                                                                            Report No. 18-13-001-03-390
                                                U.S. Department of Labor – Office of Inspector General



impact was the inability of sampled grantees to document between 24 percent and 44
percent of their reported employment outcomes.

Participants Served. Grantees collectively reported serving 113,247 participants, or
90 percent of the targeted 126,493 participants. Of the participants served, 52,890
(47 percent) were incumbent workers, meaning the participants were already employed
when they entered the program. Also, of those served, 84 percent were male,
45 percent were high school graduate or equivalent, and 44 percent had college or
vocational school education. Grantees reported 49 percent of the participants were
individuals in need of updated training related to the energy efficiency and renewable
energy industries. Other individuals served included: the unemployed (42 percent);
disadvantaged workers within areas of poverty, and seeking employment out of poverty
and into self-sufficiency (22 percent); those impacted by the National Energy and
Environmental Policy (10 percent); those with criminal records (9 percent); and veterans
(7 percent). 2

Entered Employment and Retention. Out of a target of 81,254, grantees collectively
reported 30,857 participants (38 percent) entered employment. While grantees reported
that 49 percent of participants who obtained jobs retained employment for at least
6 months, the reported number retained of 11,613 represents only 16 percent of the
planned retention goal of 71,017. The low retention rate may be in part attributable to
the timing of placement. For participants placed in the quarter ending June 30, 2012,
retention information will not be available until the quarter ending December 31, 2012.

Incumbent Workers. Of the 81,354 participants who completed training, 42,322
(52 percent) were incumbent workers. Grantees were authorized to train incumbent
workers who needed training to secure full-time employment, advance their careers, or
retain their current jobs. However, for the 81 incumbent workers we identified in our
sample, we found no evidence that they needed green job training for any of these
purposes.

Based on ETA guidance, grantees reported incumbent workers as entered employment
if they entered a new position of employment after program completion, even if the new
position was with the same employer, as long as the individuals would utilize
competencies acquired through training in their new position. Of the 30,857 participants
grantees reported as having entered employment, 11,657 (or 38 percent) were
incumbent workers, that is those who already held jobs when training began.

Training-Related Employment. Of the 30,857 participants grantees reported as having
entered employment, grantees reported that 25,396 (or 82 percent) were employed in
jobs that were either in the same occupation or industry as the training received, or the
employer recognized the credential received by the participant.


2
 A participant may be included in multiple demographics. Therefore, the sum of these demographics
exceeds 100 percent.
                                                   3                 Recovery Act: Green Jobs Program
                                                                           Report No. 18-13-001-03-390
                                            U.S. Department of Labor – Office of Inspector General



Availability and Reliability of Performance Data. For the eight grantees in our
sample, we attempted to verify grantee reported performance against available
supporting documentation. The sampled grantees were unable to provide
documentation for 24 percent of sampled participants reported as entered employment.
Moreover, they could not provide documentation for 33 percent of sampled participants
reported as entering training-related employment and 44 percent of sampled
participants tested for retention. The inability to document reported program outcomes
raises questions about what was achieved with the significant investment represented
by this program.

In addition to the availability and reliability of performance data, we also identified other
issues that have a direct bearing on determining the success of the program. Examples
of these include the duration of training, value of credentials awarded, impact of grant
period extensions, and the limitations of available employment and retention data that
does not include specific information about jobs participants received.

ETA stated that once all grants have ended in September 2013, it will determine
employment outcomes by using unemployment insurance and Federal employment
records to obtain entered employment, employment retention and wages. ETA provided
a summary of an analysis for participants that exited the program. The analysis showed
that for 12,995 participants that exited by June 30, 2011, 57 percent entered
employment, and for 6,701 participants that entered employment by December 31,
2010, 86 percent retained employment. The analysis also showed that annual wages
averaged $25,926, and ranged from $10,065 for Pathway participants to $28,361 for
ETP. However, this data is old because as of June 30, 2012, 113,247 participants were
served and 81,354 completed training.

Also, ETA is conducting two comprehensive evaluations of these grants: Green Jobs
and Health Care Implementation Study, an interim report was issued February 3, 2012,
and the final is scheduled for release in January 2013; and Green Jobs and Health Care
Impact Study, an interim report is expected in March 2014, and the final is scheduled for
release in September 2017. However, because of the issues discussed throughout this
report, ETA may face challenges in attempting to properly evaluate the program.

Finally, it is important to note that, while the results of this audit focused on the
Recovery Act funded Green Jobs training program, the lessons learned and
recommendations contained in this report apply to other discretionary grant programs
and certainly to the existing Green Jobs training program funded through ETA’s regular
appropriation.

We recommend that the Assistant Secretary for Employment and Training develop and
utilize lessons learned from the Recovery Act Green Jobs training program for future
discretionary grant programs, and improve the quality of grantee reported performance
data.



                                              4                Recovery Act: Green Jobs Program
                                                                    Report No. 18-13-001-03-390
                                            U.S. Department of Labor – Office of Inspector General



ETA’s Response and OIG’s Comments

ETA acknowledged OIG’s efforts to assess the results and costs to date of the Green
Jobs training program. However, ETA indicated that the report did not reflect the
progress of grantees from the beginning of the grants, and expressed concern that OIG
did not utilize narrative performance information in assessing grantee outcomes. This
notwithstanding, ETA agreed to consider OIG’s recommendations to improve program
performance.

The OIG audit was based on the latest data available for each participant served from
the inception of the program through June 30, 2012, as reported to ETA by grantees. In
its response, ETA includes performance data based on grantee quarterly summary
reports. However, after grantees file the quarterly reports, they continue to update and
report participant training and employment activity. The OIG used this updated, most
current data for our audit. It is also important to note that the OIG stated in the report the
problems with the accuracy and reliability of reported data, whether at the participant
level or that contained in quarterly reports. This notwithstanding, the difference between
the grantee performance data included in ETA’s response versus the data used by the
OIG is largely negligible. However, in the instance where there is a notable difference
(the total entered employment as of December 31, 2011) we believe the number used
by the OIG is appropriate. We have added clarification in the report. In summary, the
OIG report contains data from the grant agreements approved by ETA at the inception
of the program through the latest participant performance data available at the time of
the audit, which we believe provides a complete picture of the progress of the grantees
administering these grants to date.

ETA raised concerns that the OIG did not utilize narrative performance information,
specifically information on participants placed in training-related employment prior to
completion of training and the number of incumbent workers who retained their position
as a result of grant-funded services. However, relevant ETA guidance states that the
former should not be counted and, as noted in this report, we found no evidence that
the incumbent workers in our sample required services or training to keep their job or
obtain a new one.

Consistent with the recommendations in this report, we encourage ETA to apply the
lessons gleaned from this program to improve all of its discretionary grant programs.

ETA’s response is included in its entirety in Appendix E.

RESULTS

The purpose of the Recovery Act was to: (1) preserve and create jobs and promote
economic recovery, and (2) assist those most impacted by the recession. The
legislation did not define “most impacted,” leaving ETA to provide guidance giving
grantees discretion in determining which populations would be eligible for training.


                                              5                Recovery Act: Green Jobs Program
                                                                    Report No. 18-13-001-03-390
                                              U.S. Department of Labor – Office of Inspector General



The Recovery Act further provided that the Green Jobs program target populations of
eligible individuals to be given priority for training and other services, as follows:

   1. Workers impacted by national energy and environmental policy;
   2. Individuals in need of updated training related to the energy efficiency and
      renewable energy industries;
   3. Veterans, or past and present members of the Armed Forces;
   4. Unemployed individuals;
   5. Individuals, including at-risk youth, seeking employment pathways out of poverty
      and into economic self-sufficiency; and
   6. Formerly incarcerated, adjudicated, nonviolent offenders.

The main focus of the Green Jobs program was to prepare individuals for jobs in green
industries through three separate training areas: SESP, Pathways, and ETP. Overall,
the three areas received combined funding of $435.4 million and have reported
expenditures of $328.5 as of June 30, 2012, as detailed in Table 1.

Table 1: Awards and Expenditures for All Training Grants (as of June 30, 2012)
Grant                   No. of Grants         Amount Awarded              Reported Expenditures
Programs                    Awarded                  (millions)                       (millions)
SESP                               34                   $187.9                           $107.1
Pathways                           38                     147.7                            130.1
ETP                                25                      99.8                             91.3
Total                              97                   $435.4                           $328.5
Source: Grantee reported expenditures

Who was served and what training did participants receive?

Participants Served

The Green Jobs program reported serving 113,247 participants, or 90 percent of the
targeted 126,493, as of June 30, 2012. Of those served, 84 percent were male,
45 percent were high school graduate or equivalent, and 44 percent had college or
vocational school education (see Exhibit 2 for participant characteristics). Most notably,
however, incumbent workers comprised 47 percent of those served, 52 percent of those
who completed training, and 38 percent of those reported as entered employment.
These incumbent workers were individuals who already had jobs, but were enrolled in
training in order to retain their jobs, obtain new work, or otherwise upgrade their skills.

Of the 113,247 participants served, grantees reported 49 percent as individuals in need
of updated training related to the energy efficiency and renewable energy industries.
The other individuals served were: the unemployed (42 percent); disadvantaged
workers within areas of poverty and seeking employment out of poverty and into self-




                                               6                 Recovery Act: Green Jobs Program
                                                                      Report No. 18-13-001-03-390
                                                   U.S. Department of Labor – Office of Inspector General



sufficiency (22 percent); impacted by the National Energy and Environmental Policy
(10 percent); those with criminal records (9 percent); and veterans (7 percent). 3

Incumbent Workers: Employed participants served under these grants

From the inception of the Green Jobs program, grantees enrolled incumbent workers.
However, ETA did not provide guidance to grantees on how to report participants
served including incumbent workers until March 3, 2010, approximately 2 months into
the program. ETA’s guidance defined incumbent workers as those who “need training to
secure full-time employment, advance in their careers, or retain their current
occupations, such as low-wage workers, workers who need to upgrade their skills to
retain employment, and workers who are currently working part-time.” 4 Furthermore, the
guidance required that individuals in need of updated training related to the energy
efficiency and renewable energy industries had to be:

    •   employed at time of participation; or
    •   terminated or laid-off or have received a notice of termination or lay-off from
        employment; or
    •   self-employed, but are now unemployed; and
    •   can benefit from training that will help them enter or advance in the energy
        efficiency and renewable energy industries to enter occupations within one or
        more of the "growth, enhanced, and emerging" green industries.

Three grantees in our sample of eight served a significant number of incumbent
workers: Hawaii Department of Labor and Industrial Relations (Hawaii), Iowa Workforce
Development (Iowa), and Washington State Workforce Training and Education
Coordinating Board (Washington State). These grantees proposed serving incumbent
workers in order to help upgrade their skills, retain employment or find new positions.
However, our audit found no evidence that any of the 81 incumbent workers we
identified in our sample needed green job training to secure a new job or retain their
current jobs.

Incumbent (Employed) Participant Eligibility Verification

ETA required grantees to verify that all participants were eligible for the program.
However, in its June 1, 2010 guidance, ETA left it up to the grantees to develop and
apply objective guidelines to accomplish this. Our audit confirmed that self-attestation
was the primary means of eligibility verification employed by grantees. However, ETA’s
guidance cautioned grantees about the risks of relying on self-attestation for

3
  A participant may be included in multiple demographics. Therefore, the sum of these demographics
exceeds 100 percent.
4
  ETA stated this definition was only intended to apply to Health Care and Other High Growth and
Emerging Industries grantees and does not apply to green job training grantees. However, ETA did not
provide a valid explanation of why it would not apply, or an alternate definition. Moreover, the guidance
clearly states that it applies to ETP, Pathways and SESP grants. Without a clear definition grantees run
the risk of not serving those most in need as intended by the Recovery Act.
                                                     7                  Recovery Act: Green Jobs Program
                                                                                Report No. 18-13-001-03-390
                                                       U.S. Department of Labor – Office of Inspector General



documentation purposes, noting that self-attestation is more prone to error than many
other forms of source documentation. Therefore, it should be the source documentation
of last resort, and grantees should verify the information.

Training Completed

The Recovery Act provided seven energy efficiency and renewable energy industries
eligible for training in the Green Jobs program. Grantees proposed 98,158 participants
would complete training. As of June 30, 2012, 81,354 participants (83 percent) had
completed training. Participants received training in the seven green job industries
covered by the Recovery and Workforce Investment Acts, or in other green related
industries. The training industry was not identified by grantees for the remaining 2,183
or 3 percent, of participants as shown in Table 2.

 Table 2: Completed Training by Industry Sectors for All Training Grants (as of June 30, 2012)
                                                                               Non-
                                                            Incumbents                        Combined
                                                                            incumbents
 Industry Trained                                        Trained   Rate    Trained   Rate   Trained    Rate
    Energy-Efficient Building, Construction, and
 1
    Retrofit                                             15,152     36%    17,615     45%    32,767    40%
 2 Renewable Electric Power                               4,988     12%     6,309     16%    11,297    14%
 3 Energy Efficiency Assessment                           4,452     11%     1,855      5%     6,307     8%
 4 Manufacturers that produce sustainable products        2,745      6%     1,392      4%     4,137     5%
 5 Deconstruction and Materials Use                         360      1%     1,087      3%     1,447     2%
 6 Energy Efficient and Advanced Drive Train Vehicle        753      2%       404      1%     1,157     1%
 7 Biofuels                                                 450      1%       229      1%       679     1%
    Other Green Industries                               12,305     29%     9,075     23%    21,380    26%
    Not Identified                                        1,117      3%     1,066      3%     2,183     3%
 Total                                                   42,322    100%    39,032    100%    81,354   100%
Source: Grantee reported participant information

Grantees offered four different forums to train individuals: classroom, apprenticeship,
on-the-job, and pre-apprenticeship. Based on the sites we visited, classroom training
was primarily provided by training centers, technical schools, and community colleges.
The goal was to provide workers with advanced skill sets to meet specific needs of
employers. A registered apprenticeship program provides a combination of structured
learning with on-the-job training from an employer assigned mentor. Apprentices start
working from day one with incremental wage increases as they become more proficient
on the job. Upon completion of a registered apprenticeship program, participants
receive an industry-issued, nationally-recognized credential. On-the-job training is
provided by an employer to a paid participant to obtain knowledge or skills essential to
the job; it provides reimbursement of up to 50 percent of the wage rate; and is limited in
duration. Pre-apprenticeship is designed to expand opportunities for disadvantaged,
low-skilled and/or under-represented populations.




                                                        8                 Recovery Act: Green Jobs Program
                                                                               Report No. 18-13-001-03-390
                                                   U.S. Department of Labor – Office of Inspector General



  Table 3: Completed Training by Type for All Training Grants (as of June 30, 2012)
                                          Incumbents              Non-incumbents          Combined
  Type of Training                          Trained     Rate      Trained      Rate     Trained  Rate
  Classroom                                  33,578     79%        32,822      84%       66,400   82%
  Apprenticeship                              7,924     19%           127        0%       8,051   10%
  On-The-Job                                    702      2%         3,556        9%       4,258    5%
  Pre-Apprenticeship                            118      0%         2,527        6%       2,645    3%
  Total                                      42,322    100%        39,032     100%       81,354 100%
Source: Grantee reported participant information

Training Completed for Sampled Participants

Training for the 382 sampled participants that completed training was in 4 of the 7
energy efficiency and renewable energy industry sectors, in other green industries, or
was not identified by grantees. Training courses grantees reported in other green
industries included some that could have been classified as 1of the 7 green job industry
sectors, while others could not. Classes recorded as other green industries included:
hazardous waste operations and emergency response (Hazwoper), commercial driver’s
license, green cleaning, 10-hour Occupational Safety and Health Administration (OSHA)
certificate, English as a Second Language (ESL), General Educational Development
(GED), career/work readiness, and computer training. Eight participants’ training was
not identified by the grantees as to what green industry was represented.

Table 4: Completed Training by Green Job Sectors for Sampled Participants (as of March 31, 2012)
                                                                            Non-
                                                     Incumbents          Incumbents        Combined
SECTOR                                             Trained   Rate      Trained   Rate   Trained    Rate
   Energy-Efficient Building, Construction, &
1
   Retrofit                                                48   66%       140    45%        188      49%
2 Renewable Electric Power                                  5    7%        29     9%         34       9%
3 Deconstruction and Materials Use                          7   10%         9     3%         16       4%
4 Energy Efficiency Assessment                              0    0%         1     0%          1       0%
   Energy Efficient and Advanced Drive Train
5
   Vehicle                                                 0     0%         0     0%          0       0%
6 Biofuels                                                 0     0%         0     0%          0       0%
   Manufacturers produce/use sustainable
7
   processes                                                0     0%        0     0%          0      0%
   Other Green Industries                                  12    16%      123    40%        135     35%
   Not Identified                                           1     1%        7     2%          8      2%
Total                                                      73   100%      309   100%        382    100%
Source: Grantee reported participant information

In terms of the type of training, sample grantees reported providing participants who
completed training with types similar to all other Green Jobs program grantees.




                                                       9               Recovery Act: Green Jobs Program
                                                                            Report No. 18-13-001-03-390
                                                   U.S. Department of Labor – Office of Inspector General



Table 5: Completed Training by Type for Sampled Participants (as of March 31, 2012)
                                           Incumbents            Non-incumbents           Combined
Type of Training                         Trained       Rate       Trained    Rate       Trained    Rate
Classroom                                     57       77%            257    83%            314    82%
Apprenticeship                                13       17%             27     9%             40    11%
On-The-Job                                     4        5%             20     7%             24     6%
Pre-Apprenticeship                             0        0%              4     1%              4     1%
Total                                         73      100%            309   100%            382   100%
Source: Grantee reported participant information

In the following sections, we discuss the specific type of training provided to participants
we sampled as of March 31, 2012, at the eight grantees we visited.

Communication Workers of America National Education and Training Trust (CWA)
(Located in Washington, DC, and serving participants in Ohio.) – CWA reported that of
the 849 participants enrolled in classroom training, 837 completed training. In our
sample of 85 participants, 68 completed training. Participants received training in the
Other Green Industries (65 participants) and training for the remaining 3 participants
was not identified to a green industry sector.

Twenty-two participants completed the one-week Green Manufacturing Production
Module and could have been categorized under the green job industry sector
Manufacturing Using Environmentally Sustainable Processes and Materials. The
Module, which was developed with grant funding by the Manufacturing Skills Standard
Council (MSSC), taught participants how to: conduct environmental incident and hazard
investigations and preventive environmental inspections; and use advanced materials in
production to reduce waste. Upon completion of the training, participants who passed a
certification exam received an MSSC Green Production Credential. Additionally, sample
participants completed one or more of MSSC’s four manufacturing modules, including
Safety module (56 participants), Quality (49 participants), Manufacturing Production
Processes (46 participants), and Maintenance Awareness (42 participants). Each one-
week module concluded with a certification exam. Additionally, participants who passed
all four certification exams earned the Certified Production Technician credential. Basic
skills and other related courses were offered and taken by participants, including Career
Ready 101 (49 participants), Logistics (9 participants), Computer Upgrade and Repair
(5 participants), and 10 other courses with 3 or fewer participants. As of March 31,
2012, CWA had fully expended its $3,969,056 grant. The average cost of tuition for the
MSSC courses was $600 per module (1-week class).

Hawaii – Hawaii reported that of the 1,469 participants enrolled in training, 1,159
completed training. In our sample of 72 participants, grantee reported 46 completed
training. Participants received training in the Energy-Efficient Building, Construction &
Retrofit (18 participants), Deconstruction and Materials Use (2 participants), Renewable
Electric Power (2 participants), and Other Green Industries (24 participants). Training in
both the Energy-Efficient Building, Construction & Retrofit and Renewable Electric
Power included 1-week classes on the following: basic principles of transforming energy
from sunlight to electricity; hands-on training in the design and installation of solar
                                                    10                Recovery Act: Green Jobs Program
                                                                           Report No. 18-13-001-03-390
                                           U.S. Department of Labor – Office of Inspector General



thermal systems for hot water heating; and principles of the design, application,
installation, and operation of grid-tied and stand-alone PV systems. Classes in
Deconstruction and Materials Use consisted of over four months of training in waste
handling and hazardous materials. Participants that had Other Green Industries training
were involved in 1-day class in certified professional green cleaning and a 1 to 5 day
class in photovoltaic, thermal, and solar installation. Upon completion of these classes,
participants received a certificate of completion. As of March 31, 2012, Hawaii had
expended $2,989,598 of its $6,000,000 grant. Tuition for the sampled participants for
individual, specific courses ranged from $339 to $750 per course.

Iowa – Iowa reported that of the 1,392 participants enrolled in training, 1,252 completed
training. In our sample of 56 participants, 50 completed training. Participants received
training in the Energy-Efficient Building, Construction, and Retrofit (42 participants),
Renewable Electric Power (6 participants), and Deconstruction and Materials Use (2
participants). In the Energy-efficient Building industry sector, participants learned
system adjustment and verified efficiency for certification for HVAC ranging from 3 to 5
days, asbestos abatement ranging from 1 to 6 days, and lead safety renovation, repairs,
and painting of 1 day. For the Renewable Electric Power sector, participants received
training in industrial technology for 9 months. Training in Deconstruction and Material
Use sector consisted of asbestos abatement ranging from 5 to 6 days. Iowa has
expended $2,811,362 of the $5,997,000 award as of March 31, 2012. Tuition for these
courses ranged from $162 to $6,496.

Lehigh Valley Workforce Investment Board, Inc. (Lehigh) (Located in Pennsylvania) –
Lehigh reported that of the 323 participants enrolled in training, 206 completed training.
In our sample of 40 participants, 27 completed training. Lehigh did not provide Green
specific training, but planned on placing participants with employers engaged in Green-
related industries. Training was provided at community colleges and technical schools.
Participants received training in Other Green Industry sector (25 participants), and
Energy-Efficient Building, Construction, and Retrofit (2 participants). The Other Green
Industry consisted of 6 months of training in electromechanical, 42 to 69 days of training
in IT/computer networking training, and 19 to 50 days of training in a commercial driver
license course. For the Energy-Efficient Building, Construction, and Retrofit industry,
participants received training in IT/computer networking for 69 days, commercial driver
license ranging from 19 to 50 days, and Heating, Ventilation and Air Conditioning
(HVAC) ranging from 30 to 46 days. As of March 31, 2012, Lehigh had expended
$3,756,806 of its $4,000,000 grant. Tuition for the sampled participants for individual,
specific courses ranged from $695 to $16,495 per course.

Mott Community College (Mott) (Located in Michigan) - Mott reported that of the 245
participants enrolled in training, 167 completed training. In our sample of 18
participants, 16 completed training. Participants received training in the Energy-Efficient
Building, Construction & Retrofit (14 participants) and Other Green Industries (2
participants). Training in the Energy Efficient Building, Construction & Retrofit industry
sector training included a 5 to 13 week green construction on-the-job training. Topics
included: Red Cross first aid certificate, 10-hour OSHA certificate, construction
                                            11                Recovery Act: Green Jobs Program
                                                                   Report No. 18-13-001-03-390
                                           U.S. Department of Labor – Office of Inspector General



fundamentals, green construction safety and principles, weatherization, deconstruction
and retrofit. The class in Other Green Industries consisted of 45 days of training in the
road construction apprenticeship readiness program. Most of the sampled participants
received paid on-the-job work experience of up to $10,410. Completers of these
courses earned a completion certificate issued by Mott. As of March 31, 2012, Mott had
expended $2,463,535 of its $3,662,403 grant. Tuition for the sampled participants for
individual, specific courses ranged from $1,111 to $3,500 per course.

National Association of Regional Councils (NARC) (Located in Washington, DC, and
serving participants in Arizona, Ohio, and Texas.) – NARC reported that of the 966
participants enrolled in training, 881 completed training. In our sample of 93 participants
served under this grant, grantee reported 83 completed training. Participants received
training in Energy-Efficient Building, Construction, and Retrofit (27 participants);
Renewable Electric Power (26 participants); Deconstruction and Materials Use
(5 participants); Energy Efficiency Assessment (1 participant); Other Green Industries
(19 participants), training for the remaining 5 participants was not identified to a green
industry sector. The classes in the Energy Efficient Building industry sector included 20
days of employee readiness, 5 days of weatherization, and 2 to 20 days of green
construction. The Renewable Electric Power industry sector included 12 to 72 days of
training, where participants took a combination of courses such as Electrical Basics,
Intro to Renewable Energy, and Solar Electric Fundamentals. The Deconstruction and
Materials Use industry training included 2 days of the OSHA 10 training, 3 days of
Hazwoper, and 3 days of Mine Safety and Health Administration (MSHA). The Energy
Efficiency Assessment sector training was 80 days of training in HVAC. The Other
Green Industry training was a combination of HAZWOPER, MSHA, heavy machine
operation, and Cardiopulmonary Resuscitation (CPR)/First Aid, ranging from 8 to 24
days. As of March 31, 2012, NARC had expended $7,800,844 of the $7,994,999 award.
Tuition for these courses ranged from $127 to $7,320.

Providence Economic Development Partnership (Providence) (Located in Rhode Island)
– Providence reported that of the 250 participants enrolled in training, 194 completed
training. In our sample of 17 participants, 15 completed training. Participants received
training in Energy-Efficient Building, Construction & Retrofit (8 participants) and
Deconstruction and Materials Use (7 participants). The training in Energy-Efficient
Building, Construction & Retrofit sector included 12 weeks of classroom and on-the-job
training in weatherization. Participants learned a variety of techniques to identify
deficiencies, seal, and insulate buildings to enhance energy-efficiency. For the training
in the Deconstruction and Materials Use, participants received 12 weeks of classroom
and on-the-job training. Participants learned terms of construction and recycling, use of
demolition equipment, and how to identify and safely extract materials with salvage
value. Upon completion of training, all participants received four industry-recognized
certifications (OSHA, Hazwoper, First Aid, and CPR). In addition, participants also
received either a certificate of completion in weatherization or deconstruction. As of
March 31, 2012, Providence had expended $2,117,042 of its $2,489,111 grant. The
average tuition for the sampled participants was $6,952 per course.


                                            12                Recovery Act: Green Jobs Program
                                                                   Report No. 18-13-001-03-390
                                                          U.S. Deparrtment of Lab
                                                                                bor – Office off Inspector Ge
                                                                                                            eneral



Washing  gton State – Washingtton State re   eported thatt of the 1,62 25 participa
                                                                                  ants enrolle
                                                                                             ed in
training, 1,486 com mpleted train ning. In ourr sample of 82 particip pants, 77 coompleted
training. All training
                     g was relateed to the En nergy-Efficiient Buildingg, Construcction, and
Retrofit industry sector. The grantee offe   ered more th han 35 classses leading to variouss
certificattions. Partic
                      cipants took 1-day classes to learn about grreen constrruction and
sustainaability. The training also covered basic terminology rela     ated to “green”
construc ction. Some e participannts receivedd training in building au utomation or concrete
polishingg, which are e part of an
                                 n apprentice eship or jou
                                                         urney level certificationn. A small
number of participa  ants enrolleed in an 82--week building enginee    er program with a locaal
technicaal college. As of March  h 31, 2012, Washingto   on State had  d expended d $3,012,02 21 of
its $5,9773,635 gran nt. Tuition fo
                                  or the samp pled particippants for in
                                                                      ndividual, sp
                                                                                  pecific courrses
ranged from $51 to   o $5,534 pe er course.

Duration
       n of Training
                   g Received
                            d

Of the 81,354 participants who o complete ed training through the Green Job   bs program,
47 perceent (38,366
                  6 participantts) received
                                          d 5 days orr less of traiining, of wh
                                                                              hich 21 perccent
(17,374 participants) received
                             d only 1 day y of training
                                                      g (see Figurre 1).

                                                         Figure 1


                                             Length
                                                  h of Train
                                                           ning
             25,000
                                   26
                                    6%

             20,000    21%

             15,000
                                                                     133%
                                   20 992 
                                   20,992
                         17,374 




                                                           11%
             10,000
                                                                                8%       8%
                                                                      10 907 




                                                7%                                                5%
                                                                                                   %
                                                                      10,907
                                                            8,884 
                                                5,719 




                                                                                6,802 


                                                                                         6,475 


                                                                                                  4 201 



              5,000
                                                                                                  4,201




                 ‐
                       1 Day 2‐5 Days 1‐2 Wks 2 Wks to 1‐2 M
                                                           Mos 2‐3 Mos 3‐6 Mos 6+ M
                                                                                  Mos
                                                1 Mo

           Source: Grrantee reporte
                                  ed performance informatio
                                                          on as of June 30, 2012

Our ana alysis of gra
                    antee reportted data fouund that 20 0 of the 97 grantees acccount for
83 perceent (14,382 2 out of 17,3
                                374) of all participantss that completed only 1 day of
training. Of the tota
                    al 30,857 re
                               eported as entered em  mployment, 4,874 were    e for
        ants who re
participa           eceived onlyy 1 day of training. Thiis included 3,213, or 66 percent of
incumbe ent workers s who were reported as  s entered e mploymen   nt after only 1day of
training.



                                                           13                      Recovery Act: Grreen Jobs Pro
                                                                                                               ogram
                                                                                        Report No. 18-13-001-03-390
                                            U.S. Department of Labor – Office of Inspector General



Specific information on the type of training for all participants was not readily available.
However, for the sampled participants at the 8 grantees we visited we noted the
following training for the 1 day, 2-5 days, 1-2 months, and 6-plus month categories.

One Day of Training – Four of our selected grantees (CWA, Hawaii, Iowa, and
Washington State) provided in part, 1-day classes for sampled participants. These
grantees reported 60 trainees completed a 1-day training course. For those who
completed training, the majority of classes were for green construction, lead safety
renovation, repairs, and painting, photovoltaic design and installation, and sustainability
in the construction industry.

Two to Five Days of Training – Six of our selected grantees (CWA, Hawaii, Iowa, Mott,
NARC, and Washington State) provided in part, trainings that covered between 2 and 5
days, for sampled participants. These grantees reported 82 trainees completed the
training course. For those who completed training, the majority of the classes were for
photovoltaic design and installation, weatherization, System Adjustment and Verified
Efficiency for HVAC installation certification, and OSHA courses.

One to Two Months of Training – Six of our selected grantees (CWA, Hawaii, Lehigh,
Mott, NARC, and Washington State) provided in part, training that ran between 1 and 2
months for sampled participants. These grantees reported 35 trainees completed the
training course. For those who completed training, the courses primarily focused on
green construction, certified cleaning, and commercial driver’s license training.
Additionally, the participants attended electrical basics, employer readiness,
HVAC/Solar training, energy auditing, Hazwoper, Housing Industry Association
GreenSmart, information technology, and computer networking.

Six Months or More of Training – Three of our selected grantees (Iowa, Lehigh and
Washington State) provided in part, a 6-month or greater duration of training for
sampled participants. These grantees reported 8 trainees completed the training
course. For those who completed training, the classes covered electromechanical
technology, industrial technology, and commercial building engineering.

Value of Credentials Received

Training and Employment Guidance Letter (TEGL) 15-10, issued in December 2010,
emphasizes the importance of providing training that leads to credentials. The TEGL
noted that credentials are an asset to those participants that face barriers to
employment. Each solicitation for grant application (SGA) encouraged prospective
grantees to ensure that skills training would lead to awarding of “industry-recognized”
credentials.

Grantees reported “credentials” ranging from a certificate of completion for a 1-day
training course to a bachelor’s degree. Of the 81,354 participants who completed
training, 70,130 (86 percent) received some type of credential. There was limited
information regarding the value of most credentials received. The largest category,
                                             14                Recovery Act: Green Jobs Program
                                                                    Report No. 18-13-001-03-390
                                                                          U.S. Department of Labor – Office of Inspector General



certificates, could include certificates of completion or industry recognized credentials.
Information is not available for ETA to readily distinguish between the types of
certificates or their value. Of the 17,374 completers that received only 1 day of training,
14,851 (85 percent) received either a certificate or other credential. As shown in Table
6, of the 70,130 participants receiving credentials, 64,784 (92 percent) were classified
as a certificate; 4,660 (7 percent) were for "other" credentials such as 10-hour OSHA
certificate, first aid/CPR, work readiness, energy assessment, weatherization; and 686
(less than 1 percent) were for associates, bachelor's, and other degrees.

    Table 6: Credentials Received by Green Job Sector for All Training Grants (as of June 30. 2012)
                                                                           Associate's   Bachelor's    Other       Other         Total    %t of
                                                            Certificate       Degree        Degree    Degree   Credential   Credentials   Total
    Energy-Efficient Building, Construction, and Retrofit      27,496             175             2       21       2,613        30,307     43%
    Renewable Electric Power                                     8,800            113             0        6         734         9,653     14%
    Energy Efficiency Assessment                                 5,078             55             3        5         200         5,341      8%
    Manufacturers that produce sustainable products              3,718             30             2        3         210         3,963      6%
    Deconstruction and Materials Use                             1,271               0            0        0          20         1,291      2%
    Energy Efficient and Advanced Drive Train Vehicle            1,026             68             0        1          37         1,132      2%
    Biofuels                                                        575              0            0        0          32           607      1%
    Other Green Industries                                     14,980             149           38         6         607        15,780     23%
    Not Specified                                                1,840               4            0        5         207         2,056      3%
    Total                                                      64,784             594           45        47       4,660        70,130
    Percent of Total                                               92%             1%           0%       0%           7%
Source: Grantee reported performance information

The range of credential type and their relationship to the participant securing
employment will make it challenging for ETA to evaluate the value of these certifications
in assessing the success of this or any job training program.

What were the employment and retention outcomes for participants?

Grantee reported entered employment and retention outcomes for participants were far
less than originally proposed. As of June 30, 2012, with 88 percent of the extended
grant period having elapsed and $328.5 million out of $435.4 million having been spent,
grantees have fallen well short of their targets for employment and retention outcomes.
Grantees reported 30,857 (38 percent) participants entered employment 5 out of a target
of 81,254. Of these, 25,396 (82 percent) were training-related. Grantees also
collectively projected that 71,017 participants would retain their jobs for two consecutive
quarters. However, we found that grantees reported retention of only 11,613
(16 percent) of the planned goal of 71,017. (See Exhibit 5 for details of all training
grants). There was a wide range of employment and retention goals among the 97
grants, as can be seen in Table 7 and Table 8.




5
  Per ETA guidance, a participant can only be counted as entered employment if they have completed
training.
                                                   15               Recovery Act: Green Jobs Program
                                                                         Report No. 18-13-001-03-390
                                                U.S. Department of Labor – Office of Inspector General



Table 7: Performance for All Training Grants (as of June 30, 2012)
                                  Completed             Entered Training-Related        Employment
                                    Training       Employment         Employment           Retention
 Proposed                              98,158            81,254              62,003            71,017
 Reported                              81,354            30,857              25,396           11,613
 Percent of Proposed                      83%              38%                 41%               16%
Source: Grantee reported performance information. Employment retention is based on participants who
entered employment on or before December 31, 2011.

 Table 8: Percentage of Goal Attainment for All Training Grants (as of June 30, 2012)
                                        Proposed     Actual    Mean Median                 Range
 Completed Training                        98,158      83%      91%       87%         8% to 274%
 Entered Employment                        81,254      38%      55%       47%         0% to 259%
 Training-Related Employment               62,003      41%      73%       41%       0% to 1,660%
 Employment Retention                      71,017      16%      26%       16%         0% to 136%
Source: Grantee reported performance information

ETA stated that once all grants have ended in September 2013 it will determine
employment outcomes by using unemployment insurance and Federal employment
records to obtain entered employment, employment retention and wages. ETA provided
a summary of an analysis for participants that exited the program. The analysis showed
that for 12,995 participants that exited by June 30, 2011, 57 percent entered
employment, and for 6,701 participants that entered employment by
December 31, 2010, 86 percent retained employment. The analysis also showed that
annual wages averaged $25,926, and ranged from $10,065 for Pathway participants to
$28,361 for ETP participants. However, this data is old because as of June 30, 2012,
113,247 participants were served and 81,354 completed training.

Performance outcomes for our sample of 8 grantees were lower than the reported
results for all 97 grants. As of June 30, 2012, with $32.1 million out of $40.1 million
having been spent, sampled grantees have fallen well short of their targets for
employment and retention outcomes. Grantees reported 2,325 participants entered
employment out of a target of 8,131 (29 percent). Of these, 1,964 (84 percent) were
training-related. Grantees also projected that 83 percent of those placed would retain
their jobs for two consecutive quarters. While grantees reported that only 32 percent of
participants who entered employment were retained, the reported number retained of
753 represents only 11 percent of the planned retention goal of 6,763.

Table 9: Performance Goals for 8 Sampled Green Job Training Grants (as of June 30, 2012)
                                                                            Training
                               Completed               Entered               Related     Employment
                                 Training          Employment          Employment           Retention
Proposed                            9,682                8,131                 6,441             6,763
Reported                            7,395                2,325                 1,964               753
Percent                               76%                 29%                   30%               11%
Source: Grantee reported performance information. Employment retention is based on participants who
entered employment on or before December 31, 2011.



                                                 16                Recovery Act: Green Jobs Program
                                                                        Report No. 18-13-001-03-390
                                           U.S. Department of Labor – Office of Inspector General



During our audit we identified several possible reasons for low employment results.
These included the nature of incumbent workers, inaccurate reporting and record
keeping by grantees, and other challenges identified by the 8 grantees we visited.

Moreover, ETA officials cited a slow recovery in the construction industry and grantees
serving many incumbent workers that retained jobs, but did not obtain new positions.
Discussions with ETA also suggest that grantees’ maintaining contact with participants
proved to be a challenge, and therefore grantees did not always know what happened
when participants completed the program. Another possible factor for low employment
was the departure of employer partners originally involved with the grant because they
might consider hiring participants. One ETA official said that employer partners left
because their employment needs changed from the time the grantee submitted the
proposal and the program started. In her Congressional testimony on June 6, 2012, the
Assistant Secretary for Employment and Training made a similar reference. She
testified that “in some communities employer needs have changed since grants started,
and grantees have made adjustments to continue to ensure that their projects are
aligned with employer needs, such as providing training for additional occupations that
are in demand in their local areas.”

In addition to key performance measures, ETA requires grantees to report their
progress through quarterly narrative reports. These reports include; update on
leveraged resources and strategic partnership activities, timeline for grant activities and
deliverables, key issues and technical assistance needs, and best practices and
success stories. Where applicable, the narrative includes status on incumbent workers
services and if they retained employment. While the narrative provides additional
information, it does not impact the reported performance measures as defined by ETA.

Entered Employment for Incumbent Workers

Of the 30,857 participants grantees reported as having entered employment, more than
one-third, or 11,657, were workers who already held jobs when they entered the
program. Based on ETA guidance, grantees reported incumbent workers as entered
employment if they entered a new position of employment after program completion,
even if the new position was with the same employer, as long as the individual would
utilize competencies acquired through the training. Based on information reported by
grantees, most incumbent workers entered the program to obtain necessary training to
retain their current job as opposed to obtaining a new position, grantees that served a
large number of incumbent workers were more likely to have a lower overall entered
employment rate when compared to grantees serving fewer incumbent workers. In fact,
we noted that non-incumbents had a higher entered employment rate (49 percent) in
comparison to incumbents (28 percent).

Employment in Green Job Sectors

ETA required grantees to report the green industry sector where participants were
placed. For the 97 training grants, grantees reported 41 percent of the 30,857
                                            17                Recovery Act: Green Jobs Program
                                                                   Report No. 18-13-001-03-390
                                                          U.S. Department of Labor – Office of Inspector General



participants who entered employment obtained jobs in two green industry sectors:
Energy-Efficient Building, Construction & Retrofit (36 percent) and Renewable Electric
Power (5 percent). Grantees reported 34 percent of employment was in an industry not
specified as green.

Table 10: Entered Employment by Green Job Industry Sector For All Training Grants (as of
June 30, 2012)
                                         INCUMBENTS NON-INCUMBENTS                COMBINED
SECTOR                                    Placed Rate       Placed        Rate Placed Rate
1 Energy-Efficient Building, Construction, and Retrofit    4,605       40%      6,417     33%    11,022    36%
2 Renewable Electric Power                                   648        6%        886      5%     1,534     5%
3 Manufacturers produce/use sustainable products             645        6%        656      3%     1,301     4%
4 Energy Efficiency Assessment                               459        4%        515      3%       974     3%
5 Energy Efficient and Advanced Drive Train Vehicle          553        5%        243      1%       796     3%
6 Deconstruction and Materials Use                           110        1%        382      2%       492     2%
7 Biofuels                                                   109        1%         51      0%       160     1%
Other Green Industries                                     1,196       10%      2,839     15%     4,035    13%
Not Specified                                              3,332       29%      7,211     38%    10,543    34%
TOTAL                                                     11,657      100%     19,200    100%    30,857   100%
Source: Grantee reported performance information

The combined entered employment statistics by green job industry sector for the
sampled participants at the 8 grantees we visited were generally consistent with those
for all 97 training grants, except for Not Specified, where 51 percent of sampled
participants were reported versus 34 percent for participants overall.

Table 11: Entered Employment by Industry Sector for Sampled Participants (as of March 31, 2012)
                                                                   NON-
                                             INCUMBENTS      INCUMBENTS          COMBINED
SECTOR                                      Placed     Rate Placed Rate Placed             Rate
1 Energy-Efficient Building, Construction, and Retrofit           5      18%       74    29%       79       28%
2 Renewable Electric Power                                        1       4%       10     4%       11        4%
3 Deconstruction and Materials Use                                3      11%        6     2%        9        3%
4 Energy Efficient and Advanced Drive Train Vehicle               0       0%        0     0%        0        0%
5 Biofuels                                                        0       0%        0     0%        0        0%
6 Energy Efficiency Assessment                                    0       0%        0     0%        0        0%
7 Manufacturers that produce sustainable products                 0       0%        0     0%        0        0%
Other Green Industries                                            6      21%       36    14%       42       15%
Not Specified                                                    13      46%      132    51%      145       51%
Total                                                            28     100%      258   100%      286      100%
Source: Grantee reported performance information

Although ETA's system for performance data reporting included a field for job title, the
majority of grantees did not report the specific job title within each industry sector. ETA
officials stated that there was no requirement for grantees to report job titles. For our
sample of 463 participants, grantees reported 286 participants that entered
employment, and recorded specific job information for 88. The specific job information
available for sampled participants is summarized as follows:


                                                            18                 Recovery Act: Green Jobs Program
                                                                                    Report No. 18-13-001-03-390
                                            U.S. Department of Labor – Office of Inspector General



CWA – Grantee reported 60 of the sampled 85 participants as entered employment.
CWA reported North American Industry Classification System (NAICS) information for
all 60 participants that entered employment, but did not report whether the entered
employment was in a green industry for 59 of these participants. These industries
included Manufacturing (49 participants), Retail Trade (3 participants), Health Care &
Social Assistance (3 participants), Information (2 participants), Arts, Entertainment, and
Recreation (2 participants), and Professional Scientific (1 participant). However, CWA
could not support its entered employment information. The only support CWA
maintained for job placements was a master listing of participants with a checkbox
indicating whether the participant obtained employment. This listing provided no
indication of employer name, job title, green industry sector, wages, or start date and
was not supported by any other source documentation.

Hawaii – Grantee reported 32 of the sampled 72 participants as entered employment in
Energy-Efficient Building, Construction, and Retrofit (10 participants), Other Green
Industries (10 participants), Renewable Electric Power (1 participant), Deconstruction
and Materials Use (1 participant), and Not Specified (10 participants). Reported job titles
included General/Kitchen Cleaner (11 participants), Photovoltaic/Solar Installer (5
participants), Hazardous Materials Specialist (2 participants), Maintenance Engineer (2
participants), in addition to Accountant, Cook, Electronic Technician, Warehouseman,
Sales Representative, Software Tester, Laborer, Pool Attendant, Roofer, Driver, and
Meat Cutter (1 participant each). One participant was Not Specified.

Iowa - Grantee reported 21 of the 56 sampled participants as entered employment in
Energy-Efficient Building, Construction, and Retrofit (12 participants), Deconstruction
and Materials Use (3 participants), Renewable Electric Power (2 participants), and Not
Specified (4 participants). Iowa’s industries included Construction (15 participants),
Utilities, (1 participant), Manufacturing (1 participant) and Not Specified (4 participants).
Iowa did not report job titles.

Lehigh - Grantee reported 25 of the 40 sampled participants as entered employment in
Other Green Industries (20 participants) and Not Specified (5 participants). Reported job
titles included Driver (8 participants), IT related (4 participants), Supervisor (2
participants), Flagger (1 participant), Welder (1 participant), Customer Service (1
participant), Assembler/Tester (1 participant), Maintenance Mechanic (1 participant),
Shipping & Receiving (1 participant), Financial Analyst (1 participant), Forklift Operator
(1 participant), Journeyman (1 participant) and Not Specified (2 participants).

Mott - Grantee reported 13 of the 18 sampled participants as entered employment in
Energy-Efficient Building, Construction, and Retrofit (1 participant) and Not Specified
(12 participants). Reported job titles included Census Crew Leader Assistant, General
Labor, and Seasonal Athlete. The grantee did not report job titles for the remaining 10
placements.

NARC - Grantee reported 75 of the sampled 93 participants as entered employment in
Renewable Electric Power (8 participants), Energy Efficient Building, Construction, and
                                             19                Recovery Act: Green Jobs Program
                                                                    Report No. 18-13-001-03-390
                                                U.S. Department of Labor – Office of Inspector General



Retrofit (7 participants), Deconstruction and Material Use (4 participants), Other Green
Industries (9 participants), and Not Specified (47 participants). Reported job titles
included Maintenance/Janitorial (5 participants), Solar Installer/Electrician (3
participants), Technician (2 participants), Lead Roofer (1 participant), Driver (1
participant), Painter (1 participant), Security Guard (1 participant), General Laborer (1
participant), Auto Glass Replacement (1 participant). Fifty-nine participants were Not
Specified.

Providence – Grantee reported 11 of the sampled 17 participants as entered
employment in Energy Efficient Building, Construction, and Retrofit (1 participant),
Deconstruction and Materials Use (1 participant), Other Green Industries (2
participants), and Not Specified (7 participants). Reported job titles included
Environmental Technician (1 participant), Laborer (1 participant), Residential Monitor (1
participant), and Site Supervisor (1 participant). Seven participants were Not Specified.

Washington State - Grantee reported 49 of the 82 sampled participants as entered
employment. Green industries sectors of employment included Energy Efficient
Building, Construction, and Retrofit (48 participants) and Not Specified (1 participant).
Reported job titles, included Engineers (2 participants), Benchmarking Hotline (1
participant), Building Energy Survey (1 participant), Building Maintenance (1
participant), Capacity Building Coordinator (1 participant), Contract Surveillance
Representative (1 participant), Mover (1 participant), Architect (1 participant), Project
Manager (1 participant), and Energy Auditor (1 participant). Of the remaining 38
participants that entered employment, 37 had an employer name, which generally
appeared to be construction or construction-related companies (e.g., electric, glass,
stone, steel, welding, masonry, paving, etc.).

Training-Related Employment

Employment is considered training-related if the position is for the same occupation or
within the same industry as the training provided or if the employer recognizes the
credential received by the participant as a result of the grant. 6

Table 12: Comparison of Entered Employment and Training-Related Employment for All Training
Grants (as of June 30, 2012)
                                   Incumbents         Non-incumbents         Combined
                             Participants      Rate Participants  Rate Participants      Rate
Completed Training                 42,322         --      39,032     --      81,354         --
Entered Employment                 11,657       28%       19,200   49%       30,857      38%
Training-Related
Employment                         10,710       25%       14,686   38%       25,396      31%
Source: Grantee reported performance information

From our sample of 463 participants, we confirmed that there were 185 that entered
employment, but grantees identified only 79 job titles. Additionally, of the 185 that

6
    Performance Reporting Glossary and Guide for ARRA High Growth and Emerging Industries Grantees.
                                                  20              Recovery Act: Green Jobs Program
                                                                       Report No. 18-13-001-03-390
                                             U.S. Department of Labor – Office of Inspector General



entered employment, we confirmed that 96 participants entered training-related
employment but grantees only provided job titles for 52 participants. Grantees were not
required and most did not report job titles. While grantees reported training-related
employment, there was not always evidence that the position was within the same
occupation, within the same industry as the training provided, or if the employer
recognized the credential received by the participant.

The eight grantees we visited gave various explanations as to how they determined if
employment was training-related. Officials from one grantee stated that all employment
was classified as training-related while officials from another grantee indicated that this
determination was based on the names of the employers where participants were
placed.

   Table 13: Training-Related Employment for Sampled Participants (as of March 31, 2012)
                                                                          TRAINING
                                                                           RELATED
   GRANTEE                                             PROGRAM         EMPLOYMENT         %
   Hawaii                                                 SESP                   27     52%
   Lehigh                                               Pathways                 12     23%
   Washington State                                       SESP                    7     13%
   Mott                                                 Pathways                  2      4%
   NARC                                                 Pathways                  2      4%
   Providence                                           Pathways                  2      4%
   CWA                                                     ETP                    0      0%
   Iowa                                                   SESP                    0      0%
   TOTAL                                                                         52   100%
Source: Grantee reported performance information

Three of our 8 sampled grants – Hawaii, Lehigh, and Washington State – accounted for
88 percent of sampled participants identified as training-related employment. The job
titles with the most training-related employment in our sample were: 1) Room/Kitchen
Cleaner; 2) Driver; 3) Photovoltaic/Solar Installer; and 4) Construction/General Laborer.
Additionally, we found participants placed in sales, customer service, and accounting
that were classified as training-related.

   •   The 7 participants with training-related employment as a Room/Kitchen Cleaner
       were in Hawaii. Participants were trained in the Certified Cleaning Professional
       course which was industry recognized. Upon completion of the program they
       were hired at $8 per hour.

   •   The 7 participants with training-related employment as a Driver were in Lehigh.
       They all completed commercial driver training, and were employed by various
       employers earning between $11.25 and $18 per hour.

   •   Most Mott participants received training under the green construction certificate
       program. Participants learned construction fundamentals, green construction
       principles, building weatherization and maintenance, demolition and
                                              21                Recovery Act: Green Jobs Program
                                                                     Report No. 18-13-001-03-390
                                           U.S. Department of Labor – Office of Inspector General



       deconstruction, as well as Red Cross First Aid and OSHA safety training. At the
       conclusion of classroom training, completers could apply and be accepted into an
       on-the-job training program in green construction trades. Grant partners provided
       up to 6 months of on-the-job training. At the end of the training, some participants
       were offered unsubsidized employment with the same companies. On-the-job
       training wages were $10 per hour, and for those who entered employment as a
       Construction/General Laborer, starting wages were $10 per hour.

   •   There was one participant from Hawaii that completed the Photovoltaic Design
       and Installation course and was subsequently placed at a solar supply company
       in sales earning $15 per hour. There was another participant from Lehigh trained
       in Computerized Network Support Technology and was placed in customer
       service, earning $10 per hour.

Unsubstantiated Entered Employment and Other Entered Employment Challenges

Of the eight sampled grantees, the following six grantees could not support reported
employment or did not meet their entered employment goals. They attributed not
meeting their entered employment goals to the following reasons:

CWA – CWA reported 420 participants entered employment on its final performance
report, thereby meeting its entered employment goal. However, CWA’s method of
documenting employment outcomes was not adequate. The only support CWA
maintained for job placements was a listing of participants with a checkbox indicating
whether the participant obtained employment. The grantee acknowledged that their
systems for tracking placements could have been better and explained that
management was relying on a partner to assist with the data collection and reporting,
but the partnership did not materialize.

Hawaii – Grantee reported 205 participants (33 percent) entered employment as of
March 31, 2012, out of the 625 participants proposed in the Statement of Work. The
grantee attributes the low placement rate to the poor economy and to the number of
incumbent workers served (nearly 62 percent). Based on ETA guidance, grantees could
report incumbent workers as entered employment if they entered a new position of
employment after program completion, even if the new position was with the same
employer, as long as the individual would utilize competencies acquired through the
training.

Iowa – Grantee reported that 102 participants (7 percent) entered employment as of
March 31, 2012, out of the 1,400 participants proposed in the Statement of Work. The
grantee attributes the low placement rate to an incorrect assumption that all incumbent
workers who received training (nearly 70 percent) could be counted as entered
employment which is not acceptable under ETA reporting guidelines, unless certain
criteria are met. The grantee stated that its projected entered employment rate was
significantly overstated since many of the participants served were incumbent workers.

                                            22                Recovery Act: Green Jobs Program
                                                                   Report No. 18-13-001-03-390
                                           U.S. Department of Labor – Office of Inspector General



Mott – Grantee reported that 87 participants (54 percent) entered employment as of
March 31, 2012, out of the 160 participants proposed in the Statement of Work. Mott’s
primary training program for participants was 12 weeks in length and could be followed
by an additional 6 months of on-the-job. This lengthy training period resulted in its
reported employment numbers to be lower than planned. Mott applied to modify the
grant to permit training courses of shorter duration (4, 6, or 7 weeks) in length to bring
more participants into the program and was given an extension of time until
September 30, 2012, to achieve its goals.

Providence – Grantee reported 73 participants (41 percent) entered employment as of
March 31, 2012, out of the 180 participants proposed in the Statement of Work.
Providence served participants from a hard to serve population because approximately
80 percent were ex-offenders. The grantee attributes the low placement rate to the
economy worsening between the time it applied for and received the award. At least 9
employer partners dropped out because there were fewer jobs available. The grantee
also cited some union partners’ reluctance to hire participants to work on deconstruction
projects. Providence tried to recruit new employer partners to replace those who left the
project. However, the grantee said it was difficult to find employers that were willing to
take a chance on hiring ex-offenders even though they had successfully completed
training.

Washington State – Grantee reported that 335 participants (7 percent) entered
employment as of March 31, 2012, out of the 4,771 participants proposed in the
Statement of Work. The grantee attributes the low placement rate in part to a
misunderstanding of the treatment of incumbent workers, and some fundamental math
and logic errors in the Statement of Work. The grantee was under the impression that
multiple trainings provided to individuals would be counted multiple times. This is not the
case as an individual who took two or more training courses is still only counted as one
individual. Therefore, the projected number of participants, 4,814 to begin training would
include the same participant multiple times. So when the expected placement rate (92
percent) used by the grantee was applied, it overstated the possible number of
participants that would enter employment. Additionally, the grantee was under the
incorrect assumption that all incumbent workers who receive training could be counted
as entered employment which is not acceptable under ETA reporting guidelines, unless
certain criteria are met.

Entered Employment by Training Type and Length

Within the population of all program participants there was a positive correlation
between length of training and entered employment. Employment rates significantly
grew as training length increased. Overall, the entered employment rate for was 38
percent. However, the reported placement rate for participants receiving one day of
training was 28 percent, while the placement rate for those participants receiving 3 to 6
months of training was 52 percent (see Figure 2).



                                            23                Recovery Act: Green Jobs Program
                                                                   Report No. 18-13-001-03-390
                                                 U.S. Department of Labor – Office of Inspector General


                                               Figure 2


                       Placement Rate by Training Length
             60%

             50%
                                                                          52%      50%
             40%
                                                          41%    42%
                                      42%
             30%              36%              36%

             20%     28%

             10%

              0%
                    1 Day   2-5 Days 1-2 Wks 2 Wks to 1-2 Mos 2-3 Mos 3-6 Mos 6+ Mos
                                               1 Mo

            Source: Grantee reported performance information as of June 30, 2012

Employment Retention

While grantees reported that 49 percent 7 of participants who entered employment prior
to December 31, 2011, retained employment for at least 6 months, the reported number
retained of 11,613 represents only 16 percent of the planned retention goal of 71,017.
The low retention rate may be in part attributable to the timing of placement. For
participants placed in the quarter ending June 30, 2012, retention information will not be
available until the quarter ending December 31, 2012.

The table below shows participants that retained employment for two quarters
subsequent to entered employment after completing training and being employed from
the date the grants were awarded through December 31, 2011. It is not known how
many of the 7,069 participants that entered employment since January 1, 2012, were
retained, because two consecutive quarters of continuous employment had not elapsed
as of the end of our audit work.

  Table 14: Employment Retention for All Training Grants (as of June 30, 2012)
                                                    Completed              Entered
                                                       Training       Employment           Retained
  Proposed                                                98,158            81,254           71,017
  From grant start to Dec 31, 2011                        59,205            23,788           11,613
  From Jan 1 to Jun 30, 2012                              22,149              7,069                *
  Total                                                   81,354            30,857                --
Source: Grantee reported performance information. Employment retention is based on participants who
were employed on or before December 31, 2011. *Data will be available beginning November 15, 2012.


7
 The 49 percent was calculated by dividing the 11,613 participants that retained employment by the
23,788 that entered employment prior to December 31, 2011.
                                                   24                 Recovery Act: Green Jobs Program
                                                                             Report No. 18-13-001-03-390
                                             U.S. Department of Labor – Office of Inspector General



ETA cited the same issues affecting entered employment - discussed on page 16 - as
also applying to employment retention success.

Employment Retention Issues Cited by Grantees

As with entered employment, our audit identified challenges grantees faced in tracking
and reporting job retention for those participants that entered employment. Six of the
grantees did not have an effective system in place to record and track job retention.
Once a participant was employed, tracking retention became more difficult because
contact between the grantee and participant frequently ended. Based on our audit, the
only support we found for the reported retention numbers came from grantees’ ancillary
documents and their interviews with participants. Otherwise, the reported job retention
numbers could not be supported.

 Table 15: Sample Grantees Without Retention Tracking Systems (as of March 31, 2012)
                            Retention                       Retention
                                     st
                            end of 1                       end of 2nd
         Grantee             Quarter*     Errors % Errors   Quarter*     Errors     % Errors
 CWA                             0           -      -           0           -           -
 Hawaii                          3          1     33%           1           0           -
 Lehigh                          5          3     60%           4           4        100%
 NARC                           43         22     51%          38          28         74%
 Providence                      7          1     14%           5           3         60%
 Washington State               23         17     74%          17          15         88%
 * Grantee reported retention information

Two of the eight grantees - Iowa and Mott - had systems to track retention, but still had
challenges. Retention data was not found to be reliable.

Iowa reported 14 participants retained their jobs at the end of the first quarter, and at the
end of the second quarter 12 of the 14 were still employed. Iowa utilized a spreadsheet
to record wage records for each participant. The wages were tracked for two quarters.
We found 3 (21 percent) errors in the first quarter and 3 (25 percent) in the second
quarter. One of the challenges to the system was obtaining wage information for those
that were self-employed.

The system used by Mott to track entered employment, retention, and follow-up for
participants provided reminders to job development staff every ninety days after a
participant entered employment to follow-up on employment status. All contacts with
participants were recorded in electronic case notes. However, the capabilities of the
system were not effectively utilized to document and report grant participant retentions.
As a result, even though the system was designed to track retentions, the quarterly
reporting indicated zero retention as of March 31, 2012. The grant program manager
stated that Mott had 68 first quarter retentions and 44 second quarter retentions as of
June 30, 2012. Documentation was subsequently provided to support 44 retentions.
Three of the eight grantees – Hawaii, Providence and Washington State - stated that
many of the jobs participants found were “project-based” jobs, for example construction
jobs, and it was therefore less likely that employment would continue for the long term.
                                              25                Recovery Act: Green Jobs Program
                                                                     Report No. 18-13-001-03-390
                                                               U.S. Department of Labor – Office of Inspector General



   Impact of Grant Period Extensions on Performance Outcomes

   Since our first report was issued in September 2011, 46 of the 63 (73 percent)
   Pathways and ETP grants set to expire in January 2012, were extended from 2 months
   to 1 year, or an additional 29 percent of the grant period, to allow grantees additional
   time to expend funds and assist participants with training and employment. While the
   additional time gave grantees the opportunity to allow 12 percent more participants to
   complete training, entered employment increased by 9 percent during the extended
   period. Even given the extension of time, there was no evidence that grantees have
   been able to deliver or will deliver their targeted entered employment and retention
   outcomes by the end of the grant periods (see Exhibit 3 for list of extended grants).

   During the extended period of performance, the number of incumbent workers served
   significantly increased. The monthly averages of incumbent workers served and began
   training, increased by 11 and 14 percent, respectively. The monthly averages for non-
   incumbent workers served and began training, decreased by 75 and 70 percent,
   respectively.

Table 16: Summary of Green Job Training Grants Extended
                                                                                 MONTLY CHANGE IN PARTICPANTS DURING EXTENSION
                                         EXTENSION                                       SERVED               BEGAN TRAINING
             Number
                  of      Original                                        Time         Non-                      Non-
Program       Grants     End Date    Average    Minimum    Maximum    Extended   Incumbents   Incumbents   Incumbents   Incumbents
ETP          19 of 25   1/14/2012        6.1         2.5        12        26%         -64%          16%         -60%          19%
Pathways     27 of 38   1/28/2012        7.4         2.1       12.1       31%         -82%         -89%         -77%         -88%
ETP &
Pathways     46 of 63                    6.9         2.1       12.1       29%         -75%          11%         -70%           14%
SESP          9 of 34   1/28/2013        5.1          5          6        14%            --           --           --           --
All Grants   55 of 97           --         --         --         --       25%            --           --           --           --
   Source: Grantee reported performance information as of June 30, 2012

   Reported Performance Outcomes Could Not Be Supported

   In verifying the reliability of performance outcomes reported by the eight sampled
   grantees, we determined that performance outcomes could not be supported. Most
   significantly, sampled grantees could not provide evidence for 24 percent of sampled
   participants reported as entered employment, 33 percent of sampled participants
   reported as entered training-related employment, and 44 percent of sampled
   participants tested for retention.




                                                                 26                   Recovery Act: Green Jobs Program
                                                                                           Report No. 18-13-001-03-390
                                            U.S. Department of Labor – Office of Inspector General



Table 17: Unsupported Performance Outcomes for Sampled Participants (as of March 31, 2012)
                                                                Reported
                                                             Participants  Total  Percentage
Outcome                                   Sample Size        In Outcome   Errors        Error
Served                                            463                 463      8           2%
Began Training                                    463                 425     26           6%
Completed Training                                463                 382     94         20%
Received Credential                               463                 329     97         21%
Entered Employment                                463                 286    111         24%
Training-Related Employment                       463                 237    151         33%
Employment Retention                              147                  77     65         44%
Source: Grantee reported performance information and audit results

The majority of the errors (86 percent) were from three of the sampled grantees: CWA
(42 percent), Washington State (23 percent), and NARC (21 percent).

CWA –Employment data was not adequately tracked. CWA reported that 60
participants had entered employment, but could only provide employer names for 48 of
the 60 participants. Additionally, CWA reported most of its participants that entered
employment as training-related. However, CWA did not have a valid method for
capturing this information. CWA used the employer’s name and job title to determine if
employment was training-related. However, for the 60 participants in the sample that
CWA reported as having training-related employment, employer names were not
documented for 12 (20 percent) participants and job titles that would help identify
whether the placement was training-related, were not available for any of the 60
participants. The grantee stated that they were relying on a partner to assist with the
data collection and reporting, but the partnership failed to materialize.

Washington State –Employment and training related employment information was not
adequately tracked. Washington State reported 49 participants as having entered
employment and the employment was reported as training-related. Of the 49, we found
that 32 (65 percent) did not have adequate documentation maintained in the participant
files to confirm that the trainee entered employment and that employment was training-
related. The grantee stated that there was no formal direction from ETA on what
outcome related information was required to be kept. Therefore, Washington State
created guidance for sub-recipients that required outcome related information be
available, but not that it be placed in the participant file. As a result, we were unable to
verify the employment and training-related employment for sampled participants.

NARC – Employment and training related employment information was not adequately
tracked. Grantee officials stated that participants had multiple options to assist with job
searches in addition to development seminars held in conjunction with One-Stop Career
Centers. However, most participants found employment on their own, and attempts to
follow-up with were largely unsuccessful. As a result, NARC relied on unemployment
insurance wage records to verify employment. The nature of the jobs secured through
the program made unemployment insurance wage verification one of the few reliable
methods of tracking employment because once a participant secured employment
contact would often cease. For our sample of 93 participants, NARC reported that 75
                                             27                Recovery Act: Green Jobs Program
                                                                    Report No. 18-13-001-03-390
                                           U.S. Department of Labor – Office of Inspector General



entered employment. NARC was not able to provide documentation supporting
employment for 15 (16 percent) of the participants entering employment.

Additionally, NARC reported most of its employment as training-related, but admitted
that they used a “common-sense” approach to identify training-related jobs. NARC
reported individuals as receiving a training-related job if the participant’s resume or job
application listed the grant training and passed the “common-sense” test. For our
sample of 75 reported as entered employment, 49 were reported as training-related, 41
of which (84 percent) we either could not determine from the information provided or did
not find documentation supporting the assertion.

Disparate Goals Among Grantees

Grant agreements varied significantly in terms of employment and retention goals
proposed by grantees and approved by ETA. For example, Jobs for the Future, Inc. a
Pathways grant, proposed to serve 1,130 participants, place 81 percent of those served,
and retain employment for at least 6 months 65 percent of those served at a per
participant cost of $8,789 based on entered employment, or $10,926 based on
retention. According to ETA, Pathways grantees target individuals who were
unemployed, dropped out of high school, have criminal records, or live in areas of high
poverty. Therefore, they generally have a higher cost per participant due to additional
services necessary to successfully support the population served. However, the Institute
for Career Development, Inc. an ETP grant, proposed to serve 2,000 participants, but
place and retain only 12 percent of those served at a cost of over $19,000 per
participant. These variances in grantee performance agreements, where one grantee’s
expected performance is so disproportionately lower to the expected performance of
another grantee providing similar type training, will impact the different successes each
grantee achieves. Exhibit 4 on page 41 contains detailed information on all 97 grants.

Table 18 provides a summary by grant type of planned entered employment and
retained employment for each training grant as compared to the planned number of
participants the grants would serve, as well as the total planned cost per participant
based on entered employment and retained employment.




                                            28                Recovery Act: Green Jobs Program
                                                                   Report No. 18-13-001-03-390
                                                 U.S. Department of Labor – Office of Inspector General



 Table 18: Planned Performance Goals and Per Participant Costs for All Training Grants by Grant
                  Type (as of June 30, 2012)
                                             Percent        Percent                 Cost Per
                                           Served to         Served   Cost Per      Planned      Cost Per
                            Planned         Entered     to Retained   Planned        Entered     Planned
                            to Serve     Employment    Employment      Served    Employment     Retention
 ETP
                   Mean      1,464              65%          58%       $2,727       $4,171       $4,689
                  Median     1,400              68%          55%       $3,330       $6,009       $5,468
                    Max      3,640              95%          95%      $16,283      $22,389      $29,852
                     Min       120              12%          12%       $1,317            1/           1/
 PATHWAYS
                   Mean        670              52%          41%       $5,804      $11,261       $14,150
                  Median       438              57%          47%       $7,901      $13,289       $16,443
                    Max      3,639              90%          90%      $16,949    $102,894*     $102,894*
                     Min       150              13%          13%       $1,299       $4,597        $5,744
 SESP
                      Mean       1,937              67%      60%    $2,853         $4,250       $4,782
                    Median       1,457              68%      64%    $3,776         $5,685       $6,369
                       Max       7,125              88%      81%    $7,646        $19,020      $19,020
                        Min        400              22%      22%      $842         $1,080            1/
 ALL PROGRAMS
                      Mean       1,319              64%      56%    $3,404         $5,359       $6,131
                    Median       1,100              62%      53%    $4,430         $8,030       $9,193
                       Max       7,125              95%      95% $16,949       $102,894* $102,894*
                        Min        120              12%      12%      $842              1/           1/
Source: Grant agreements
1/ Could not be determined because not all grantees provided complete data on planned performance in
the grant agreements approved by ETA.
* The $102,894 comprises 1 grant, which is approximately 40 percent more in cost than the next highest
grant. See Exhibit 4 for cost information for all grantees.

CONCLUSION

As of June 30, 2012, with 88 percent of the extended grant periods having elapsed, the
impact of the Recovery Act Green Jobs training program has been limited in terms of
reported employment outcomes. Complicating the assessment of the program’s overall
impact was the inability of sampled grantees to document between 24 percent and 44
percent of their reported employment outcomes.

Although grantees have reported achieving 90 percent of serving a collective goal of
126,493 participants, entered employment and retention results are far lower than
planned. Out of a target of 81,254 participants, grantees collectively reported placing
30,857 into jobs (38 percent). Moreover, while grantees collectively projected 71,017
participants would retain employment for at least 6 months, grantees reported that only
11,613 actually did, which amounts to 16 percent of the collective goal. The low
retention rate may be in part attributable to the timing of placement. For participants


                                                  29                  Recovery Act: Green Jobs Program
                                                                           Report No. 18-13-001-03-390
                                             U.S. Department of Labor – Office of Inspector General



placed in the quarter ending June 30, 2012, retention information will not be available
until the quarter ending December 31, 2012.

Grantees were authorized to train incumbent workers who needed training to secure
full-time employment, advance their careers, or retain their current jobs. Of the 81,354
participants who completed training, 42,322 (52 percent) were incumbent workers,
meaning the participants were already employed when they entered the program.
However, for the 81 incumbent workers we identified in our sample, we found no
evidence that they needed green job training for any of these purposes.

Based on ETA guidance, grantees reported incumbent workers as entered employment
if they entered a new position of employment after program completion, even if the new
position was with the same employer, as long as the individuals would utilize
competencies acquired through training in their new position. Of the 30,857 participants
grantees reported as having entered employment, 11,657 (or 38 percent) were
incumbent workers, that is those who already held jobs when training began.

For the eight grantees in our sample, we attempted to verify grantee reported
performance against available supporting documentation. The sampled grantees were
unable to provide documentation for 24 percent of those reported as entering
employment. Moreover, they could not provide documentation for 33 percent of those
reported as entering training-related employment. The inability to document reported
program outcomes raises questions about what was achieved with the investment in
this program.

In addition to the availability and reliability of performance data, we also identified other
issues that have a direct bearing on determining the true success of the program.
Examples of these include the impact of grant period extensions, meaningfulness of
credentials, the duration of training, and the limitations of available employment and
retention data that does not include specific information about jobs participants
received.

ETA stated that once all grants have ended in September 2013, it will determine
employment outcomes by using unemployment insurance and Federal employment
records to obtain entered employment, employment retention, and quarterly wages.
Also, ETA is conducting two comprehensive evaluations of these grants: Green Jobs
and Health Care Implementation Study an interim report was issued February 3, 2012,
and the final is expected in January 2013; and Green Jobs and Health Care Impact
Study an interim report is expected March 2014, and the final is expected September
2017. However, because of the issues discussed throughout this report, ETA may face
challenges in attempting to properly evaluate the program.

Finally, it is important to note that, while the results of this audit focused on the
Recovery Act-funded Green Jobs training program, the lessons and recommendations
contained in this report are applicable to other ETA discretionary grant programs and


                                              30                Recovery Act: Green Jobs Program
                                                                     Report No. 18-13-001-03-390
                                          U.S. Department of Labor – Office of Inspector General



certainly to the existing Green Jobs training program funded through ETA’s regular
appropriation.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training:

1. Develop and utilize lessons learned from the Recovery Act - Green Jobs Training
   Program to improve future discretionary grant programs by:

   •   Ensuring that training, placement and retention goals contained in grant
       agreements are sufficiently comparable among grantees to fully contribute to the
       overall success and cost efficiency of the program;
   •   Developing a clear strategy for serving incumbent workers to ensure that grant
       funds are only expended on those most in need of services to obtain new
       employment or retain their current jobs;
   •   Evaluating the benefits of short (1-5 days) and long-term (6+months) training
       toward improving the job prospects of incumbent and unemployed workers; and
   •   Evaluating the criteria for ETA approved “credentials” to ensure that they add
       value to participants’ career development and job prospects.

2. Improve the quality of grantee reported performance data by:

   •   Clarifying grantee data collection and reporting expectations; and
   •   Improving monitoring and controls over grant performance and financial data.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                           31                Recovery Act: Green Jobs Program
                                                                  Report No. 18-13-001-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              32                Recovery Act: Green Jobs Program
                                     Report No. 18-13-001-03-390
           U.S. Department of Labor – Office of Inspector General




Exhibits




            33                Recovery Act: Green Jobs Program
                                   Report No. 18-13-001-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              34                Recovery Act: Green Jobs Program
                                     Report No. 18-13-001-03-390
                                                U.S. Department of Labor – Office of Inspector General



                                                                                               Exhibit 1
 Eight Sampled Grantees


Reported Results for Eight Sampled Grantees as of June 30, 2012
                                                     Selected Measures (% of Proposed Goals)
                                     Proposed
                Award       Award Participants                  Completed
 Grantee       Amount       Period    Served        Served       Training    Placed   Retained
                              1/15/2010
                                  to
CWA              $3,969,056   1/14/2012       1,000    1,298 (130%)      831 (83%)    420 (42%)       0 (0%)
                              1/29/2010
                                  to
Hawaii           $6,000,000   1/28/2013       1,300    1,688 (130%)   1,343 (103%)    273 (21%)      29 (2%)
                              1/29/2010
                                  to
Iowa             $5,997,000   1/28/2013       1,600    2,000 (125%)   1,812 (113%)    156 (10%)      55 (3%)
                              1/29/2010
                                  to
Lehigh           $4,000,000   6/30/2012         400     660 (165%)       274 (69%)    194 (49%)     82 (21%)
                              1/29/2010
                                  to
Mott             $3,662,403   9/30/2012         300     318 (106%)       207 (69%)    111 (37%)       0 (0%)
                              1/29/2010
                                  to
NARC             $7,994,999   4/28/2012       1,000    1,284 (128%)      880 (88%)    525 (53%)    246 (25%)
                              1/29/2010
                                  to
Providence       $2,489,111   7/31/2012         300      287 (96%)       194 (65%)     73 (24%)      19 (6%)
                              1/29/2010
                                  to
Washington       $5,973,635   6/30/2013       5,446     1,975 (36%)    1,854 (34%)     573 (11%)    322 (6%)
Totals          $40,086,204                  11,346     9,510 (84%)    7,395 (65%)   2,325 (20%)    753 (7%)
 Source: Grantee reported performance information as of June 30, 2012. Employment retention was
 based on participants employed on or before December 31, 2011.




                                                  35                  Recovery Act: Green Jobs Program
                                                                           Report No. 18-13-001-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              36                Recovery Act: Green Jobs Program
                                     Report No. 18-13-001-03-390
                                                                    U.S. Department of Labor – Office of Inspector General



                                                                                                                      Exhibit 2
Participant Characteristics

Profile of Participants Served for 97 Green Job Training Grants
                                                                  ETP            PATHWAYS             SESP          ALL PROGRAMS
                                                           Partic-         %   Partic-  % of    Partic-         %   Partic-       %
                                                           ipants     Served   ipants   Part.   ipants     Served    ipants  Served
GENDER
Male                                                       34,105      85%     18,472    76%    41,994      86%      94,571    84%
Female                                                      5,719      14%      5,664    23%     6,722      14%      18,105    16%
Not Specified                                                 385       1%         12     0%       174       0%         571     1%
TOTAL PARTICIPANTS                                         40,209     100%     24,148   100%    48,890     100%     113,247   100%

DEMOGRAPHICS 1
Need of Updated Training in Energy Efficiency &
Renewable Energy Ind.                                      29,141      72%        557     2%    26,029      53%      55,727    49%
Unemployed Individual                                      12,236      30%     19,779    82%    15,642      32%      47,657    42%
Disadvantaged Worker within Areas of Poverty                   99       0%     16,901    70%       577       1%      17,577    16%
Impacted by National Energy and Environmental Policy        9,507      24%         10     0%     1,825       4%      11,342    10%
Individual with a Criminal Record                             102       0%      8,344    35%     1,745       4%      10,191     9%
Eligible Veteran                                            3,378       8%      1,162     5%     2,855       6%       7,395     7%
Seeking Employment Path. Out of Poverty & Self-Suff.          241       1%      2,719    11%     4,023       8%       6,983     6%
 High School Dropout                                          829       2%      4,545    19%     1,270       3%       6,644     6%
Impacted by Automotive-related Restructuring                3,134       8%         17     0%     1,774       4%       4,925     4%
Limited English Proficient                                    649       2%      1,400     6%       409       1%       2,458     2%
Individual with a Disability                                  457       1%        534     1%       510       1%       1,501     1%

RACE
White                                                      24,604      61%      6,806    28%    34,386      70%      65,796    58%
Black or African American                                   6,452      16%     12,855    53%     4,810      10%      24,117    21%
Not Specified                                               6,306      16%      2,632    11%     4,964      10%      13,902    12%
More Than One Race                                            835       2%        889     4%     1,317       3%       3,041     3%
Asian                                                       1,291       3%        292     1%     1,275       3%       2,858     3%
American Indian or Alaska                                     502       1%        553     2%     1,541       3%       2,596     2%
Native Hawaiian or Other Pacific Islander                     219       1%        121     1%       597       1%         937     1%
TOTAL PARTICIPANTS                                         40,209        --    24,148      --   48,890        --    113,247      --

EDUCATION
High School graduate or equivalent                         17,390      43%     12,883    53%    20,579      42%      50,852    45%
1 - 4 yrs. or more of college, tech or vocational school   15,077      37%      4,496    19%    14,519      30%      34,092    30%
Associates Degree/Bachelor's Degree/4+ yrs. of college      5,245      13%      1,173     5%     9,918      20%      16,336    14%
9th grade - 12th grade                                      2,076       5%      4,974    21%     3,599       7%      10,649     9%
8th grade and under                                           421       1%        622     3%       275       1%       1,318     1%

TOTAL PARTICIPANTS                                         40,209         --   24,148      --   48,890         --   113,247      --




1
 Participants were included in multiple demographics. Therefore, the sum of these demographics
exceeds more than 100 percent.
                                                  37                  Recovery Act: Green Jobs Program
                                                                           Report No. 18-13-001-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              38                Recovery Act: Green Jobs Program
                                     Report No. 18-13-001-03-390
                                                                     U.S. Department of Labor – Office of Inspector General


                                                                                                                     Exhibit 3
      Extended Green Job Training Grants

                                                                                                                    Extended           %
GRANTEE                                                                                 Start Date     End Date     End Date    Extended
SESP -- Start, End, and Extension Dates
       Alabama Department Of Economic And Community Affairs                             1/29/2010      1/28/2013    6/30/2013       14%
       Alaska Department Of Labor And Workforce Development                             1/29/2010      1/28/2013    6/30/2013       14%
       Arkansas Workforce Investment Board/Department Of Workforce Services             1/29/2010      1/28/2013    6/30/2013       14%
       Idaho Department Of Labor                                                        1/29/2010      1/28/2013    7/31/2013       17%
       Maryland Department Of Labor, Licensing And Regulation                           1/29/2010      1/28/2013    6/30/2013       14%
       New Mexico Department Of Workforce Solutions                                     1/29/2010      1/28/2013    6/30/2013       14%
       Oregon State Of Education                                                        1/29/2010      1/28/2013    6/30/2013       14%
       Utah Department Of Workforce Services                                            1/29/2010      1/28/2013    6/30/2013       14%
       Washington State Workforce Training And Education Coordinating Board             1/29/2010      1/28/2013    6/30/2013       14%
SESP SUMMARY                                                                           No. of Grants Extended:              9       14%

PATHWAYS -- Start, End, and Extension Dates
    Alternative Opportunities, Inc.                                                     1/29/2010      1/28/2012    7/31/2012       25%
    City Of Minneapolis                                                                 1/29/2010      1/28/2012    9/28/2012       33%
    CNY Works, Inc.                                                                     1/29/2010      1/28/2012    4/28/2012       12%
    Consortium For Worker Education                                                     1/29/2010      1/28/2012   12/31/2012       46%
    East Harlem Employment Services, Inc.                                               1/29/2010      1/28/2012    6/30/2012       21%
    Eastern Maine Development Corporation                                               1/29/2010      1/28/2012   10/28/2012       38%
    Goodwill Industries International                                                   1/29/2010      1/28/2012   12/31/2012       46%
    Grand Rapids Community College                                                      1/29/2010      1/28/2012    7/31/2012       25%
    It's My Community Initiative                                                        1/29/2010      1/28/2012    1/28/2013       50%
    Jobs For The Future, Inc.                                                           1/29/2010      1/28/2012    9/30/2012       34%
    Lehigh Valley Workforce Investment Board, Inc.                                      1/29/2010      1/28/2012    6/30/2012       21%
    Los Angeles Community College District                                              1/29/2010      1/28/2012    7/28/2012       25%
    MDC, Inc.                                                                           1/29/2010      1/28/2012    1/31/2013       51%
    Mott Community College                                                              1/29/2010      1/28/2012    9/30/2012       34%
    Moultrie Technical College                                                          1/29/2010      1/28/2012   12/31/2012       46%
    National Association Of Regional Councils                                           1/29/2010      1/28/2012    4/28/2012       12%
    National Council Of La Raza                                                         1/29/2010      1/28/2012    9/30/2012       34%
    Opportunities Industrialization Centers Of America, Inc.                            1/29/2010      1/28/2012   10/28/2012       38%
    Pathstone Corporation                                                               1/29/2010      1/28/2012   10/31/2012       38%
    Providence Economic Development Partnership                                         1/29/2010      1/28/2012    7/31/2012       25%
    Roca, Inc.                                                                          1/29/2010      1/28/2012    1/31/2013       51%
    SER - Jobs For Progress Of The Texas Gulf Coast, Inc.                               1/29/2010      1/28/2012   11/30/2012       42%
    Southwest Housing Solutions Corporation                                             1/29/2010      1/28/2012    6/30/2012       21%
    The Workplace, Inc.                                                                 1/29/2010      1/28/2012    4/28/2012       12%
    Western Iowa Tech Community College                                                 1/29/2010      1/28/2012    6/29/2012       21%
    Workforce Development Council Of Seattle King County                                1/29/2010      1/28/2012    3/31/2012        9%
    Worksystems, Inc.                                                                   1/29/2010      1/28/2012    6/30/2012       21%
PATHWAYS SUMMARY                                                                       No. of Grants Extended:             27       31%

ETP -- Start, End, and Extension Dates
       Austin Electrical J.A.T.C.                                                       1/15/2010     1/14/2012     7/14/2012       25%
       Broward County Minority Builders Coalition                                       1/15/2010     1/14/2012     9/14/2012       33%
       Central Vermont Community Action Council, Inc.                                   1/15/2010     1/14/2012     7/14/2012       25%
       Community Housing Partners Corporation                                           1/15/2010     1/14/2012     7/14/2012       25%
       H-Cap, Inc.                                                                      1/15/2010     1/14/2012     6/30/2012       23%
       Heritage Community Initiatives                                                   1/15/2010     1/14/2012     4/13/2012       12%
       International Transportation Learning Center                                     1/15/2010     1/14/2012     8/31/2012       32%
       Joint Labor Management Cooperation Committee                                     1/15/2010     1/14/2012     7/14/2012       25%
       Labor's Community Agency, Inc.                                                   1/15/2010     1/14/2012     3/31/2012       11%
       Memphis Bioworks Foundation                                                      1/15/2010     1/14/2012     7/14/2012       25%




                                                                      39                Recovery Act: Green Jobs Program
                                                                                             Report No. 18-13-001-03-390
                                                                        U.S. Department of Labor – Office of Inspector General
                                                                                                                         Draft

                                                                                                        Exhibit 3 (continued)

                                                                                                                      Extended           %
GRANTEE                                                                                    Start Date      End Date   End Date    Extended

ETP -- Start, End, and Extension Dates (continued)
       Montana Electrical Joint Apprenticeship And Training Committee                      1/15/2010      1/14/2012   7/15/2012       25%
       Northwest Energy Efficiency Council                                                 1/15/2010      1/14/2012   3/31/2012       11%
       Ohio Electrical Labor Management Cooperative Committee, Inc.                        1/15/2010      1/14/2012   3/31/2012       11%
       Oregon Manufacturing Extension Partnership                                          1/15/2010      1/14/2012   1/14/2013       50%
       SER Metro Detroit Jobs For Progress, Inc.                                           1/15/2010      1/14/2012   9/30/2012       36%
       The Providence Plan                                                                 1/15/2010      1/14/2012   9/30/2012       36%
       Thomas Shortman Training Scholarship And Safety Fund                                1/15/2010      1/14/2012   6/30/2012       23%
       UAW-Labor Employment And Training Corporation                                       1/15/2010      1/14/2012   9/30/2012       36%
       Utility Workers Union of America, AFL-CIO                                           1/15/2010      1/14/2012   7/14/2012       25%
ETP SUMMARY                                                                               No. of Grants Extended:            19       26%

ALL GREEN JOB TRAINING GRANTS                                                             No. of Grants Extended:           55        25%




                                                                         40                Recovery Act: Green Jobs Program
                                                                                                Report No. 18-13-001-03-390
                                                                     U.S. Department of Labor – Office of Inspector General


                                                                                                                    Exhibit 4
         Disparate Goals Planned by Grantees

                                                                                                                     Cost Per
                                                                                     Entered                          Entered   Cost Per
                                                                                     Employ-   Retain-   Cost Per    Employ-     Reten-
Grantee Name                                                  Program       Served     ment        ed     Served        ment        tion
 1 Nevada Department Of Employ, Training And Rehabilitation    SESP          7,125      78%      74%         $842      $1,080     $1,145
 2 Thomas Shortman Training Scholarship And Safety Fund        ETP           2,000      95%      95%       $1,401      $1,475     $1,475
 3 Washington State Workforce Training and Education           SESP          5,446      88%      74%       $1,097      $1,252     $1,485
 4 Healthcare Advancement Program, Inc.                        ETP           3,520      81%      81%       $1,317      $1,626     $1,626
 5 International Transportation Learning Center                ETP           3,640      85%      80%       $1,374      $1,616     $1,717
   Montana Electrical Joint Apprenticeship And Training
                                                               ETP           2,475      90%      81%       $2,020      $2,242     $2,491
 6 Committee
   New Jersey Department Of Labor And Workforce
                                                               SESP          3,412      68%      68%       $1,758      $2,596     $2,596
 7 Development
 8 Wisconsin Department Of Workforce Development               SESP          4,508      59%      47%       $1,331      $2,264     $2,830
 9 Indiana Department Of Workforce Development                 SESP          2,500      86%      78%       $2,400      $2,804     $3,093
10 California Joint Labor Management Cooperation Committee     ETP           2,192      73%      73%       $2,281      $3,141     $3,141
11 Arkansas Workforce Investment Board                         SESP          2,800      54%      49%       $1,738      $3,195     $3,550
12 Maryland Department Of Labor, Licensing And Regulation      SESP          2,265      76%      66%       $2,558      $3,380     $3,904
13 Workforce West Virginia                                     SESP          2,082      75%      70%       $2,882      $3,827     $4,096
14 Utah Department Of Workforce Services                       SESP          1,400      79%      79%       $3,286      $4,152     $4,152
15 New Mexico Department Of Workforce Solutions                SESP          3,125      46%      46%       $1,920      $4,167     $4,167
16 Labor's Community Agency, Inc.                              ETP           1,913      56%      45%       $1,884      $3,365     $4,210
   Ohio Electrical Labor Management Cooperative Committee,
                                                               ETP           1,400      80%      80%       $3,447      $4,290     $4,290
17 Inc.
18 Central Vermont Community Action Council, Inc.              ETP           2,542      44%      44%       $1,906      $4,300     $4,300
19 Wyoming Department Of Workforce Services                    SESP          2,023      51%      51%       $2,222      $4,319     $4,319
   Illinois Department Of Commerce And Economic
                                                               SESP          1,836      71%      71%       $3,268      $4,580     $4,598
20 Opportunity
21 Iowa Workforce Development                                  SESP          1,600      88%      81%       $3,748      $4,284     $4,613
22 The Providence Plan                                         ETP           2,075      77%      39%       $1,793      $2,325     $4,650
23 Blue Green Alliance Foundation                              ETP           2,063      60%      48%       $2,424      $4,039     $5,000
   International Training Institute for Sheet Metal and A/C
                                                               ETP           1,500      62%      62%       $3,330      $5,371     $5,371
24 Industry
25 Broward County Minority Builders Coalition                  ETP           1,000      70%      60%       $3,281      $4,687     $5,468
26 Opportunities Industrialization Centers Of America, Inc.    Pathways      1,600      67%      53%       $3,063      $4,597     $5,744
   Citrus Levy Marion Regional Workforce Development Bd,
                                                               Pathways        665      84%      78%       $4,489      $5,369     $5,785
27 Inc.
28 Michigan Department Of Energy, Labor & Economic Growth      SESP          1,282      82%      77%       $4,540      $5,532     $5,903
29 Better Family Life, Inc.                                    Pathways      1,000      70%      53%       $3,305      $4,722     $6,296
30 State of Oklahoma                                           SESP          1,200      88%      79%       $5,000      $5,714     $6,316
31 Oregon State Department Of Education                        SESP          1,247      72%      68%       $4,317      $5,995     $6,349
32 Arizona Department Of Economic Security                     SESP          1,648      68%      57%       $3,641      $5,367     $6,369
33 Alabama Department Of Economic And Community Affairs        SESP          2,100      55%      43%       $2,857      $5,217     $6,667
34 Alaska Department Of Labor And Workforce Development        SESP            700      86%      77%       $5,143      $6,010     $6,679
35 State Of California Employment Development Department       SESP          1,200      80%      70%       $5,000      $6,250     $7,143
36 East Central Intergovernmental Association                  ETP             392      79%      72%       $5,256      $6,646     $7,280
37 Kansas Department Of Commerce                               SESP          1,580      52%      52%       $3,797      $7,281     $7,281
38 Los Angeles Community College District                      Pathways        925      72%      57%       $4,324      $5,997     $7,590
38 Connecticut Employment And Training Commission              SESP            895      62%      49%       $3,754      $6,098     $7,619
40 UAW-Labor Employment And Training Corporation               ETP             725      61%      55%       $4,414      $7,273     $8,000
41 North Carolina Department Of Commerce                       SESP          1,137      64%      64%       $5,256      $8,153     $8,153
   Minnesota Department Of Employ. & Economic
                                                               SESP          1,495      60%      48%       $4,013      $6,689     $8,357
42 Development
43 Colorado Department Of Labor And Employment                 SESP          1,200      65%      59%       $4,998      $7,739    $8,412
44 Utility Workers Union of America, AFL-CIO                   ETP             719      91%      82%       $6,946      $7,659    $8,436
45 East Harlem Employment Services, Inc.                       Pathways      3,639      24%      15%       $1,299      $5,367    $8,489
46 Commonwealth of MA, Labor and Workforce Development         SESP          1,379      56%      48%       $4,332      $7,738    $9,065
47 State Of Ohio                                               SESP          1,800      36%      36%       $3,333      $9,160    $9,160
48 Oregon Manufacturing Extension Partnership                  ETP           1,734      37%      31%       $2,884      $7,837    $9,225
49 South Dakota Department Of Labor                            SESP            400      68%      68%       $6,250      $9,259    $9,259
50 Florida State College At Jacksonville                       Pathways        390      72%      62%       $5,717      $7,907    $9,290
51 Northwest Energy Efficiency Council                         ETP             875      54%      46%       $4,430      $8,195    $9,571
52 Austin Electrical JATC                                      ETP           1,100      46%      46%       $4,402      $9,608    $9,608
53 Hawaii Department of Labor and Industrial Relations         SESP          1,300      48%      45%       $4,615      $9,600   $10,239

                                                                      41                Recovery Act: Green Jobs Program
                                                                                             Report No. 18-13-001-03-390
                                                                 U.S. Department of Labor – Office of Inspector General
                                                                                                                  Draft

                                                                                              Exhibit 4 (continued)


                                                                                                                 Cost Per
                                                                                 Entered                          Entered    Cost Per
                                                                                 Employ-    Retain-   Cost Per   Employ-       Reten-
Grantee Name                                                Program     Served     ment         ed      Served      ment         tion
54 SER - Jobs For Progress Of The Texas Gulf Coast, Inc.     Pathways      400      85%       75%       $7,806     $9,184     $10,409
55 Kentucky Education and Workforce Development Cabinet      SESP          620      81%       72%       $7,646     $9,424     $10,677
56 Workforce Development Council Of Seattle King County      Pathways      475      77%       71%       $7,662     $9,971     $10,864
57 Jobs For The Future, Inc.                                 Pathways    1,130      81%       65%       $7,078     $8,789     $10,926
58 Northern Rural Training & Employment Consortium           Pathways      615      70%       56%       $6,504     $9,281     $11,594
59 MDC, Inc.                                                 Pathways      734      53%       44%       $5,151     $9,670     $11,742
60 Missouri Division Of Workforce Development                SESP          810      65%       59%       $7,407    $11,429     $12,632
61 Alternative Opportunities, Inc.                           Pathways      200      90%       90%      $11,541    $12,823     $12,823
62 Southwest Housing Solutions Corporation                   Pathways    1,200      30%       26%       $3,333    $11,111     $12,903
63 Pathstone Corporation                                     Pathways    1,200      51%       51%       $6,667    $12,987     $12,987
64 The Workplace, Inc.                                       Pathways      700      50%       39%       $5,714    $11,429     $14,545
65 Nebraska Department Of Labor                              SESP          950      37%       33%       $5,094    $13,788     $15,364
66 Providence Economic Development Partnership               Pathways      300      60%       53%       $8,297    $13,828     $15,557
67 Goodwill Industries International                         Pathways    1,300      48%       36%       $5,618    $11,761     $15,639
68 National Association of Regional Councils                 Pathways    1,000      50%       50%       $7,995    $15,990     $15,990
69 Memphis Bioworks Foundation                               ETP           450      55%       40%       $6,514    $11,867     $16,105
70 Mi Casa Resource Center For Women, Inc.                   Pathways      500      54%       45%       $7,266    $13,456     $16,220
71 City Of Minneapolis                                       Pathways      500      60%       48%       $8,000    $13,333     $16,667
72 Heritage Health Foundation                                ETP           120      75%       70%      $11,738    $15,651     $16,769
73 Grand Rapids Community College                            Pathways    1,250      24%       18%       $3,200    $13,245     $17,621
74 Moultrie Technical College                                Pathways      360      58%       58%      $10,427    $18,046     $18,046
75 Idaho Department Of Labor                                 SESP        1,418      22%       22%       $4,225    $19,020     $19,020
76 Community Housing Partners Corporation                    ETP           380      66%       53%      $10,172    $15,462     $19,327
77 Institute For Career Development, Inc.                    ETP         2,000      12%       12%       $2,329    $19,412     $19,412
78 Community College Of Philadelphia                         Pathways      250      81%       65%      $12,738    $15,687     $19,657
79 Consortium For Worker Education                           Pathways      500      54%       37%       $8,000    $14,815     $21,739
80 Boley Centers, Inc.                                       Pathways      225      56%       44%      $10,225    $18,405     $23,007
81 National Council Of La Raza                               Pathways      241      67%       54%      $12,713    $19,030     $23,568
82 Private Industry Council of Westmoreland/Fayette, Inc.    Pathways      250      61%       46%      $10,931    $17,861     $23,763
83 Roca, Inc.                                                Pathways      225      62%       44%      $10,661    $17,134     $24,477
84 Central New York Works, Inc.                              Pathways    1,000      37%       15%       $3,716    $10,153     $25,452
85 Southeast Community College Area                          Pathways      400      48%       23%       $5,828    $12,270     $25,903
86 West Hills Community College District                     Pathways      300      49%       38%      $10,000    $20,408     $26,087
87 Eastern Maine Development Corporation                     Pathways      150      60%       50%      $14,061    $23,434     $28,121
88 Western Iowa Tech Community College                       Pathways      300      55%       47%      $13,332    $24,239     $28,165
89 Mott Community College                                    Pathways      300      53%       43%      $12,208    $22,890     $28,172
90 SER Metro Detroit Jobs For Progress, Inc.                 ETP           264      73%       55%      $16,283    $22,389     $29,852
91 Worksystems, Inc.                                         Pathways      360      50%       35%      $11,111    $22,222     $31,746
92 It's My Community Initiative                              Pathways      236      81%       32%      $16,949    $21,053     $53,333
93 Lehigh Valley Workforce Investment Board, Inc.            Pathways      400      19%       16%      $10,000    $53,333     $61,538
94 White Earth Band of Chippewa                              Pathways      240      13%       13%      $12,862   $102,894    $102,894
95 Communications Workers of America                         ETP         1,000      42%          1/     $3,969     $9,450           1/
96 Commonwealth Of Pennsylvania, Department Of Labor         SESP        1,379      77%          1/     $4,351     $5,655           1/
97 National Ironworkers And Employers Apprenticeship         ETP           510         1/        1/     $3,812          1/          1/


Average By Green Job Training Grant Program
ETP                                                                      1,464       65%       58%      $2,727     $4,171     $4,689
PATHWAYS                                                                   670       52%       41%      $5,804   $11,261     $14,150
SESP                                                                     1,937       67%       60%      $2,853     $4,250     $4,782
All Programs                                                             1,319       64%       56%      $3,404     $5,359     $6,131


         1/ Data not available because grantee did not provide all goals in the grant agreement that was approved
         by ETA.




                                                                  42                Recovery Act: Green Jobs Program
                                                                                         Report No. 18-13-001-03-390
                                                                                                     U.S. Department of Labor – Office of Inspector General


                                                                                                                                                 Exhibit 5
  Grant Awards, Expenditures, and Training Outcomes for All Grants as of June 30, 2012

                                                                                                                                            Entered in
                                                                                                       Enrolled                             Training-
                                                               Awards &       Proposed/                   in      Completed     Entered      Related     Employment
  No.                        Grantee Name                     Expenditures    Reported     Served      Training    Training   Employment   Employment     Retention

SESP Grants (34 grants in total)
1         Alabama Department of Economic and Community Affairs
                                                       Award:   $6,000,000     Proposed:     2,100        1,800       1,442        1,150          975           900
                                                 Expenditures:  $3,514,396     Reported:     1,787        1,786         820           85           55             5
2         Alaska Department of Labor and Workforce Development
                                                       Award:     3,600,000    Proposed:      700           700         665          599          539           539
                                                 Expenditures:    2,211,641    Reported:      756           756         733          368          359            95
3         Arizona Department of Economic Security
                                                       Award:     6,000,000    Proposed:     1,648        1,648       1,502        1,118         1,083          942
                                                 Expenditures:    4,502,949    Reported:     2,088        2,079       1,495          832           785          166
4         Arkansas Workforce Investment Board
                                                       Award:     4,866,479    Proposed:     2,800        2,240       1,792        1,523         1,344        1,371
                                                 Expenditures:    3,677,320    Reported:     2,796        2,795       2,376        1,533         1,394          466
5         Colorado Department of Labor and Employment
                                                       Award:     5,998,050    Proposed:     1,200        1,200         830          775          760           713
                                                 Expenditures:    4,405,627    Reported:     1,842        1,833       1,331          300          299           149
6         Commonwealth of MA, Labor and Workforce Development
                                                       Award:     5,973,657    Proposed:     1,379        1,379       1,164          772          681           659
                                                 Expenditures:    4,161,004    Reported:     1,576        1,568       1,223          518          482           250
7         Commonwealth of Pennsylvania, Department of Labor
                                                       Award:     6,000,000    Proposed:     1,379        1,061       1,061        1,061            0             0
                                                 Expenditures:    4,602,787    Reported:     1,731        1,712       1,056          462          343           154
8         Connecticut Employment and Training Commission
                                                       Award:     3,360,000    Proposed:      895           895         813          551          486           441
                                                 Expenditures:    2,066,033    Reported:      886           884         749          150          135            71
9         Kentucky Education and Workforce Development Cabinet
                                                       Award:     4,740,457    Proposed:      620           620         560          503          469           444
                                                 Expenditures:    2,123,896    Reported:      648           648         441           84           77            17
10        Hawaii Department of Labor and Industrial Relations
                                                       Award:     6,000,000    Proposed:     1,300        1,243       1,172          625            0           586
                                                 Expenditures:    3,844,291    Reported:     1,688        1,683       1,343          273          226            29
11        Idaho Department of Labor
                                                       Award:     5,991,184    Proposed:        0         1,418         569         315*          356           315
                                                 Expenditures:    4,055,149    Reported:      954           954         280          162          148            12
12        Illinois Department of Commerce and Economic Opportunity
                                                       Award:     6,000,000    Proposed:     1,836        1,836       1,694        1,310         1,310        1,305
                                                 Expenditures:    3,245,341    Reported:     1,063        1,061         592          148           129           23
13        Indiana Department of Workforce Development
                                                       Award:     6,000,000    Proposed:     2,500        2,500       2,190        2,140         2,075        1,940
                                                 Expenditures:    2,080,164    Reported:       838          827         531          137           133           20


                                                                              43                                        Recovery Act: Green Jobs Program
                                                                                                                             Report No. 18-13-001-03-390
                                                                                                       U.S. Department of Labor – Office of Inspector General

                                                                                                                                   Exhibit 5 (continued)
     Grant Awards, Expenditures, and Training Outcomes for all Grants as of June 30, 2012

                                                                                                                                               Entered in
                                                                                                         Enrolled                              Training-
                                                                  Awards &      Proposed/                   in      Completed     Entered       Related     Employment
     No.                    Grantee Name                         Expenditures   Reported     Served      Training    Training   Employment    Employment     Retention
14         Iowa Workforce Development
                                                      Award:        5,997,000    Proposed:     1,600        1,600       1,500        1,400          1,000        1,300
                                                 Expenditures:      3,516,636    Reported:     2,000        1,994       1,812          156            108           55
15         Kansas Department of Commerce
                                                       Award:       5,999,890    Proposed:     1,580        1,316       1,053         824*           927           824
                                                 Expenditures:      3,338,415    Reported:       952          946         421          197           182            45
16         Maryland Department of Labor, Licensing and Regulation
                                                       Award:       5,793,183    Proposed:     2,265        2,265       1,833        1,714          1,415        1,484
                                                 Expenditures:      3,906,329    Reported:     1,577        1,577       1,375          169            169            7
17         Michigan Department of Energy, Labor and Economic Growth
                                                       Award:       5,819,999    Proposed:     1,282        1,137           0        1,052             0           986
                                                 Expenditures:      3,302,884    Reported:       951          951         609          298           255           121
18         Minnesota Department of Employ. and Economic Development
                                                       Award:       6,000,000    Proposed:     1,495        1,495       1,196          897           628           718
                                                 Expenditures:      2,109,857    Reported:     1,462        1,458         983          319           274           178
19         Missouri Division of Workforce Development
                                                       Award:       6,000,000    Proposed:      810           810         635          525           505           475
                                                 Expenditures:      2,735,437    Reported:      692           692         432          111            85            25
20         Nebraska Department of Labor
                                                       Award:       4,839,511    Proposed:       950          867         737          351           329           315
                                                 Expenditures:      2,793,762    Reported:     1,315        1,309         473          136            94            13
21         Nevada Department of Employ, Training and Rehabilitation
                                                       Award:       6,000,000    Proposed:     7,125        7,125       6,289        5,557           732         5,238
                                                 Expenditures:      3,555,499    Reported:     2,890        2,869       2,210          332           284            85
22         New Jersey Department of Labor and Workforce Development
                                                       Award:       6,000,000    Proposed:     3,412        3,412       3,073       2,311**            0         2,311
                                                 Expenditures:      1,088,759    Reported:       831          831         410          191           191             0
23         New Mexico Department of Workforce Solutions
                                                       Award:       5,999,989    Proposed:     3,125        2,500       2,000        1,440*         1,800        1,440
                                                 Expenditures:      2,656,293    Reported:     1,238        1,203         882           223           221           57
24         North Carolina Department of Commerce
                                                       Award:       5,976,512    Proposed:     1,137        1,137         998        733**           783           733
                                                 Expenditures:      3,346,308    Reported:     1,252        1,213         775         516            491           108
25         Oregon State Department of Education
                                                       Award:       5,383,568    Proposed:     1,247        1,247       1,060          898           811           848
                                                 Expenditures:      3,698,261    Reported:     1,178        1,159         589          345           299           147
26         South Dakota Department of Labor
                                                       Award:       2,500,000    Proposed:      400           300         285          270           257           270
                                                 Expenditures:      2,112,836    Reported:      393           267         126          112            91            28
27         State of California Employment Development Department
                                                       Award:       6,000,000    Proposed:     1,200        1,200         960          960           900           840
                                                 Expenditures:      4,877,002    Reported:     1,076        1,016         521          293           273            12


                                                                                44                                        Recovery Act: Green Jobs Program
                                                                                                                               Report No. 18-13-001-03-390
                                                                                                          U.S. Department of Labor – Office of Inspector General

                                                                                                                                      Exhibit 5 (continued)
     Grant Awards, Expenditures, and Training Outcomes for all Grants as of June 30, 2012

                                                                                                                                                  Entered in
                                                                                                            Enrolled                              Training-
                                                                     Awards &      Proposed/                   in      Completed     Entered       Related     Employment
     No.                          Grantee Name                      Expenditures   Reported     Served      Training    Training   Employment    Employment     Retention
28          State of Ohio
                                                         Award:        6,000,000    Proposed:     1,800        1,600       1,500        655**           200           655
                                                    Expenditures:        729,034    Reported:     1,373        1,373       1,364            0             0             0
29          State of Oklahoma
                                                         Award:        6,000,000    Proposed:     1,200        1,200       1,100        1,050          1,000          950
                                                    Expenditures:      3,689,721    Reported:     3,133        3,126       2,558        1,351          1,294          605
30          Utah Department of Workforce Services
                                                       Award:          4,600,000    Proposed:     1,400        1,400           0       1,108**          955         1,108
                                                  Expenditures:        2,871,467    Reported:     1,076        1,068         219           80            73             0
31          Washington State Workforce Training and Education
                                                       Award:          5,973,635    Proposed:     5,446        5,174       4,915        4,771          4,731        4,022
                                                  Expenditures:        3,598,231    Reported:     1,975        1,975       1,854          573            549          322
32          Wisconsin Department of Workforce Development
                                                       Award:          6,000,000    Proposed:     4,508        4,206       2,944        2,650          2,503        2,120
                                                  Expenditures:        2,511,455    Reported:     2,800        2,800         320          302            302            0
33          Workforce West Virginia
                                                       Award:          6,000,000    Proposed:     2,082        2,002       1,749        1,568             0         1,465
                                                  Expenditures:        3,782,230    Reported:     1,252        1,184       1,042          408           207            25
34          Wyoming Department of Workforce Services
                                                       Award:          4,495,704    Proposed:     2,023            0       1,755        1,041             0         1,041
                                                  Expenditures:        2,415,733    Reported:       821          784         505          276           237             0
Subtotals for SESP grants:
                                                       Award:       $187,908,818   Proposed:     64,444       60,533      51,036       44,217         29,554       39,298
                                                 Expenditures:      $107,126,748   Reported:     48,890       48,381      32,450       11,440         10,244        3,290

Pathways Grants (38 grants in total)
35         Alternative Opportunities, Inc.
                                                         Award:       $2,308,200    Proposed:      200           200         200        180**           160           180
                                                    Expenditures:     $2,098,818    Reported:      166           166         105          70             39            56
36          Better Family Life, Inc.
                                                         Award:        3,305,493    Proposed:     1,000          900         783          700           700           525
                                                    Expenditures:      3,218,272    Reported:     1,235          928         817          351           336            40
37          Boley Centers, Inc.
                                                        Award:      2,300,678       Proposed:      225           150         127          125            80           100
                                                  Expenditures:     1,844,031       Reported:      247           180         111           59            35            24
38          Citrus Levy Marion Regional Workforce Development Bd, Inc.
                                                        Award:      2,985,175       Proposed:      665           665         556          556           556           516
                                                  Expenditures:     1,708,204       Reported:      344           341         258          131            55            80
39          City of Minneapolis
                                                        Award:      4,000,000       Proposed:      500           500         400          300           210           240
                                                  Expenditures:     3,951,374       Reported:      586           586         482          292           206           193



                                                                                   45                                        Recovery Act: Green Jobs Program
                                                                                                                                  Report No. 18-13-001-03-390
                                                                                                         U.S. Department of Labor – Office of Inspector General

                                                                                                                                     Exhibit 5 (continued)
     Grant Awards, Expenditures, and Training Outcomes for all Grants as of June 30, 2012

                                                                                                                                                Entered in
                                                                                                           Enrolled                             Training-
                                                                    Awards &      Proposed/                   in      Completed     Entered      Related     Employment
     No.                     Grantee Name                          Expenditures   Reported     Served      Training    Training   Employment   Employment     Retention
40         Central New York Works, Inc.
                                                        Award:        3,715,931    Proposed:     1,000          750         488          366          293           146
                                                   Expenditures:      2,281,251    Reported:     1,387          472         293          122          102            77
41         Community College of Philadelphia
                                                        Award:        3,184,428    Proposed:      250           250         225          203          195           162
                                                   Expenditures:      1,990,681    Reported:      243           243         165           74           40            20
42         Consortium for Worker Education
                                                        Award:        4,000,000    Proposed:      500           448         378          270          188           184
                                                   Expenditures:      3,637,430    Reported:      585           566         311          183          137            16
43         East Harlem Employment Services, Inc.
                                                        Award:        4,728,419    Proposed:     3,639        1,819       1,258          881          818           557
                                                 Expenditures:        4,568,047    Reported:     1,998        1,905       1,174          504          283           118
44         Eastern Maine Development Corporation
                                                        Award:        2,109,088    Proposed:      150           135         110           90           65            75
                                                 Expenditures:        1,648,905    Reported:      109            95          70           39           34            14
45         Florida State College at Jacksonville
                                                        Award:        2,229,642    Proposed:      390           390         332          282          240           240
                                                 Expenditures:        1,511,806    Reported:      288           287         199          110           62             0
46         Goodwill Industries International
                                                        Award:        7,303,634    Proposed:     1,300          997         764          621          571           467
                                                 Expenditures:        7,054,541    Reported:     1,668        1,349         997          657          266           441
47         Grand Rapids Community College
                                                        Award:        4,000,000    Proposed:     1,250        1,080         464          302          151           227
                                                 Expenditures:        3,931,337    Reported:       665          499         300          165          109            72
48         It's My Community Initiative
                                                        Award:        4,000,000    Proposed:      236           236         214          190            5            75
                                                 Expenditures:        2,844,414    Reported:      612           247         195           98           83            13
49         Jobs for the Future, Inc.
                                                        Award:        7,997,936    Proposed:     1,130        1,100         997          910          848           732
                                                 Expenditures:        7,075,153    Reported:     1,283        1,282         888          532          419           261
50         Lehigh Valley Workforce Investment Board, Inc.
                                                        Award:        4,000,000    Proposed:      400           225         100           75           70            65
                                                 Expenditures:        3,819,407    Reported:      660           324         274          194          169            82
51         Los Angeles Community College District
                                                        Award:        4,000,000    Proposed:       925          925         878          667          600           527
                                                 Expenditures:        3,983,177    Reported:     1,028          904         605          246          190             0
52         MDC, Inc.
                                                        Award:        3,780,816    Proposed:      734           711         580          391          318           322
                                                 Expenditures:        2,946,411    Reported:      679           679         359          182           89            69
53         Mi Casa Resource Center for Women, Inc.
                                                        Award:        3,633,195    Proposed:      500           500         400          270           50           224
                                                 Expenditures:        3,604,279    Reported:      727           544         511          220          168            53


                                                                                  46                                        Recovery Act: Green Jobs Program
                                                                                                                                 Report No. 18-13-001-03-390
                                                                                                            U.S. Department of Labor – Office of Inspector General

                                                                                                                                        Exhibit 5 (continued)
     Grant Awards, Expenditures, and Training Outcomes for all Grants as of June 30, 2012

                                                                                                                                                   Entered in
                                                                                                              Enrolled                             Training-
                                                                       Awards &      Proposed/                   in      Completed     Entered      Related     Employment
     No.                    Grantee Name                              Expenditures   Reported     Served      Training    Training   Employment   Employment     Retention
54         Mott Community College
                                                        Award:           3,662,403    Proposed:      300           200         170          160          140           130
                                                   Expenditures:         3,279,607    Reported:      318           318         207          111          107             0
55         Moultrie Technical College
                                                         Award:          3,753,579    Proposed:      360           324         260         208*          208           208
                                                    Expenditures:        2,770,523    Reported:      143           123          20            4            2             0
56         National Association of Regional Councils
                                                         Award:          7,994,999    Proposed:     1,000          800         600          500          500           500
                                                    Expenditures:        7,924,565    Reported:     1,284          966         880          525          346           246
57         National Council of La Raza
                                                         Award:          3,063,839    Proposed:      241           241         216          161          139           130
                                                    Expenditures:        2,649,139    Reported:      333           322         182          105           70            66
58         Northern Rural Training & Employment Consortium
                                                         Award:          4,000,000    Proposed:      615           554         443          431          420           345
                                                    Expenditures:        4,000,000    Reported:      586           581         436          188          144            33
59         Opportunities Industrialization Centers of America, Inc.
                                                         Award:          4,900,000    Proposed:     1,600        1,350           0        1,066         1,066          853
                                                    Expenditures:        4,436,641    Reported:     1,020          903         804          392           170          163
60         Pathstone Corporation
                                                         Award:          8,000,000    Proposed:     1,200        1,176         660        616**          360           616
                                                    Expenditures:        5,689,966    Reported:     1,408        1,058         411         359           267            20
61         Private Industry Council of Westmoreland/Fayette, Inc.
                                                         Award:          2,732,719    Proposed:      250           245         191          153          120           115
                                                    Expenditures:        2,699,127    Reported:      557           504         290          248          210            95
62         Providence Economic Development Partnership
                                                         Award:          2,489,111    Proposed:      300           240         225          180            0           160
                                                    Expenditures:        2,136,431    Reported:      287           250         194           73           41            19
63         Roca, Inc.
                                                         Award:          2,398,778    Proposed:      225           225         150          140          110            98
                                                    Expenditures:        1,987,517    Reported:      244           214         129          128           46            71
64         SER - Jobs for Progress of the Texas Gulf Coast, Inc.
                                                         Award:          3,122,554    Proposed:      400           400         360          340          320           300
                                                    Expenditures:        2,866,614    Reported:      406           406         385          330          200           170
65         Southeast Community College Area
                                                         Award:          2,331,278    Proposed:      400           400         220          190          110            90
                                                    Expenditures:        1,544,168    Reported:      249           246         110           65           30             0
66         Southwest Housing Solutions Corporation
                                                         Award:          4,000,000    Proposed:     1,200          425         410          360          320           310
                                                    Expenditures:        4,000,000    Reported:       449          449         338          189          130           123
67         The WorkPlace, Inc.
                                                         Award:          4,000,000    Proposed:      700           600         500          350          320           275
                                                    Expenditures:        3,868,575    Reported:      585           504         437          172          100            52


                                                                                     47                                        Recovery Act: Green Jobs Program
                                                                                                                                    Report No. 18-13-001-03-390
                                                                                                         U.S. Department of Labor – Office of Inspector General

                                                                                                                                     Exhibit 5 (continued)
     Grant Awards, Expenditures, and Training Outcomes for all Grants as of June 30, 2012

                                                                                                                                                 Entered in
                                                                                                           Enrolled                              Training-
                                                                    Awards &      Proposed/                   in      Completed     Entered       Related     Employment
     No.                    Grantee Name                           Expenditures   Reported     Served      Training    Training   Employment    Employment     Retention
68         West Hills Community College District
                                                        Award:        3,000,000    Proposed:      300           300         210          147           126           115
                                                   Expenditures:      3,000,000    Reported:      356           354         318          242           193           156
69         Western Iowa Tech Community College
                                                        Award:        3,999,459    Proposed:      300           300         222          165           142           142
                                                   Expenditures:      3,568,671    Reported:      365           365         255           94            84             0
70         White Earth Band of Chippewa
                                                        Award:      3,086,817      Proposed:      240           240         100         30**            25            30
                                                 Expenditures:      2,482,921      Reported:      136           126          80          16              9             1
71          Workforce Development Council of Seattle King County
                                                        Award:      3,639,530      Proposed:      475           450         406          365           275           335
                                                 Expenditures:      3,505,998      Reported:      491           489         442          256           144            59
72          Worksystems, Inc.
                                                        Award:      4,000,000      Proposed:      360           300         225          180           160           126
                                                 Expenditures:      3,983,081      Reported:      421           351         252          193           164           112
Subtotals for Pathways grants:
            Award:                                               $147,757,701     Proposed:     25,460       20,751      14,822       13,121         10,979       10,442
                                                                 $130,111,082     Reported:     24,148       20,126      14,284        7,919          5,279        3,015

ETP Grants (25 grants in total)
73         Austin Electrical JATC
                                                        Award:       $4,842,424    Proposed:     1,100        1,100         950        504**           504           504
                                                   Expenditures:     $4,719,965    Reported:     2,006        2,006       1,199         111             35            79
74         Blue Green Alliance Foundation
                                                       Award:      5,000,000       Proposed:     2,063        2,063       1,650        1,238          1,000        1,000
                                                  Expenditures:    4,816,335       Reported:     1,663        1,663       1,660          472            367          160
75         Broward County Minority Builders Coalition
                                                       Award:      3,280,656       Proposed:     1,000          900         700          700           600           600
                                                  Expenditures:    2,507,934       Reported:       550          547         481          281           101            99
76         California Joint Labor Management Cooperation Committee
                                                       Award:      5,000,000       Proposed:     2,192        2,192       2,082       1,592**         1,592        1,592
                                                  Expenditures:    4,857,393       Reported:     2,106        2,106       1,867         1,510         1,510        1,009
77         Central Vermont Community Action Council, Inc.
                                                       Award:      4,846,195       Proposed:     2,542        2,542       2,397       1,127**         1,127        1,127
                                                  Expenditures:    4,628,670       Reported:     2,431        2,369       2,330         1,933         1,805          845
78         Community Housing Partners Corporation
                                                       Award:      3,865,480       Proposed:      380           350         320          250           200           200
                                                  Expenditures:    3,616,499       Reported:      568           523         443          340           287           200
79         Communications Workers of America
                                                       Award:      3,969,056       Proposed:     1,000        1,000       1,000          420             0             0
                                                  Expenditures:    3,969,056       Reported:     1,298          849         831          420           418             0



                                                                                  48                                        Recovery Act: Green Jobs Program
                                                                                                                                 Report No. 18-13-001-03-390
                                                                                                           U.S. Department of Labor – Office of Inspector General

                                                                                                                                       Exhibit 5 (continued)
     Grant Awards, Expenditures, and Training Outcomes for all Grants as of June 30, 2012

                                                                                                                                                   Entered in
                                                                                                             Enrolled                              Training-
                                                                     Awards &       Proposed/                   in      Completed     Entered       Related     Employment
     No.                       Grantee Name                         Expenditures    Reported     Served      Training    Training   Employment    Employment     Retention
80         East Central Intergovernmental Association
                                                         Award:        2,060,250     Proposed:      392           392         344          310           283           283
                                                    Expenditures:      1,733,393     Reported:      367           367         335          149            71            64
81         Healthcare Advancement Program, Inc.
                                                         Award:        4,637,551     Proposed:     3,520        3,472       3,420       2,852**         2,852        2,852
                                                    Expenditures:      4,261,705     Reported:     2,774        2,590       2,250          162            157           37
82         Heritage Health Foundation
                                                         Award:        1,408,601     Proposed:      120           120         102           90            84            84
                                                    Expenditures:      1,271,171     Reported:      431           148         113           75            42            42
83         Institute for Career Development, Inc.
                                                            Award:      4,658,983    Proposed:     2,000        1,900       1,200        240**           240           240
                                                      Expenditures:     4,658,983    Reported:     1,160        1,034         642         209            124            16
84         International Training Institute for Sheet Metal and A/C Industry
                                                            Award:      4,995,188    Proposed:     1,500        1,500       1,482         930*           930           930
                                                      Expenditures:     1,804,611    Reported:       380          380         361           30            30             7
85         International Transportation Learning Center
                                                            Award:      5,000,000    Proposed:     3,640        3,640       3,276        3,095          3,095        2,912
                                                      Expenditures:     4,878,617    Reported:     5,655        5,655       5,576            0              0            0
86         Labor’s Community Agency, Inc.
                                                            Award:      3,604,162    Proposed:     1,913        1,817       1,530        1,071           856           856
                                                      Expenditures:     3,603,324    Reported:     2,482        2,432       2,395        1,124           972           906
87         Memphis Bioworks Foundation
                                                            Award:      2,931,103    Proposed:      450           395         314          247           192           182
                                                      Expenditures:     2,891,340    Reported:      536           480         406          186           150           127
88         Montana Electrical Joint Apprenticeship and Training Committee
                                                            Award:      5,000,000    Proposed:     2,475        2,475       2,450        2,230          2,007        2,007
                                                      Expenditures:     4,986,886    Reported:     3,491        3,491       3,478          330            330            0
89         National Ironworkers and Employers Apprenticeship
                                                            Award:      1,943,931    Proposed:      510           510         510            0             0             0
                                                      Expenditures:     1,729,989    Reported:      631           631         622          461            42           152
90         Northwest Energy Efficiency Council
                                                            Award:      3,876,171    Proposed:      875           750         675          473           405           405
                                                      Expenditures:     3,624,758    Reported:      780           769         577          288           225           113
91         Ohio Electrical Labor Management Cooperative Committee, Inc.
                                                            Award:      4,826,073    Proposed:     1,400        1,400       1,288       1,125**         1,125        1,125
                                                      Expenditures:     4,805,320    Reported:     2,434        2,434       2,371         1,182         1,143          388
92         Oregon Manufacturing Extension Partnership
                                                            Award:      5,000,000    Proposed:     1,734        1,734       1,672          638           542           542
                                                      Expenditures:     4,089,778    Reported:     2,605        2,599       1,888          405           349           172
93         SER Metro Detroit Jobs for Progress, Inc.
                                                            Award:      4,298,673    Proposed:      264           240         216          192           144           144
                                                      Expenditures:     4,088,303    Reported:      328           328         256          184           142            82


                                                                                    49                                        Recovery Act: Green Jobs Program
                                                                                                                                   Report No. 18-13-001-03-390
                                                                                                       U.S. Department of Labor – Office of Inspector General

                                                                                                                                   Exhibit 5 (continued)
     Grant Awards, Expenditures, and Training Outcomes for all Grants as of June 30, 2012

                                                                                                                                               Entered in
                                                                                                         Enrolled                              Training-
                                                                 Awards &       Proposed/                   in      Completed     Entered       Related     Employment
     No.                     Grantee Name                       Expenditures    Reported     Served      Training    Training   Employment    Employment     Retention
94         The Providence Plan
                                                        Award:      3,720,000    Proposed:     2,075        1,775       1,600        1,600           800           800
                                                   Expenditures:    3,402,279    Reported:     1,245        1,220       1,164          763           725           246
95          Thomas Shortman Training Scholarship and Safety Fund
                                                        Award:      2,802,269    Proposed:     2,000        2,000       1,900       1,900**         1,900        1,900
                                                   Expenditures:    2,802,269    Reported:     2,507        2,507       2,150           21             21           13
96          UAW-Labor Employment and Training Corporation
                                                        Award:      3,200,000    Proposed:       725          725         550          440           400           400
                                                   Expenditures:    2,668,618    Reported:     1,030          983         692          337           302           116
97          Utility Workers Union of America, AFL-CIO
                                                        Award:      4,993,922    Proposed:      719           719         672          652           592           592
                                                   Expenditures:    4,899,699    Reported:      751           747         533          525           525           435
Subtotals for ETP grants:
                                                        Award:    $99,760,688   Proposed:     36,589       35,711      32,300       23,916         21,470       21,277
                                                  Expenditures:   $91,316,895   Reported:     40,209       38,858      34,620       11,498          9,873        5,308
Subtotals for All 97 GJTG grants:
TOTALS FOR ALL 97 GREEN JOB TRAINING GRANTS
                                                        Award:   $435,427,207   Proposed:    126,493      116,995      98,158       81,254         62,003       71,017
                                                  Expenditures:  $328,554,725   Reported:    113,247      107,365      81,354       30,857         25,396       11,613
* The number for “Entered Employment” was not provided by ETA. Therefore, the number proposed as “Employment
Retention” was used for consistency.
** The number for “Entered Employment” provided by ETA was less than the proposed “Employment Retention”. As a result,
 the number proposed as “Employment Retention” was used.




                                                                                50                                        Recovery Act: Green Jobs Program
                                                                                                                               Report No. 18-13-001-03-390
             U.S. Department of Labor – Office of Inspector General




Appendices




              51                Recovery Act: Green Jobs Program
                                     Report No. 18-13-001-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              52                Recovery Act: Green Jobs Program
                                     Report No. 18-13-001-03-390
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix A
Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed by
President Obama on February 17, 2009. The purpose of the Recovery Act was to assist
those most impacted by the recession by creating and preserving jobs. The Recovery
Act provided $500 million for research, labor exchange, and job training projects to
prepare workers for careers in energy efficiency and renewable energy as described in
section 171(e)(1)(B) of the Workforce Investment Act (WIA) - also known as The Green
Jobs Act of 2007. The main focus of the Green Jobs program was to prepare individuals
for jobs in Green industry sectors through three separate training areas: State Energy
Section Partnership (SESP), Pathways Out of Poverty (Pathways), and Energy Training
Partnership (ETP).

On September 30, 2011 we issued a report entitled, “Recovery Act: Slow Pace Placing
Workers into Jobs Jeopardizes Employment Goals of the Green Jobs Program,” report
number 18-11-004-03-390, on the status of the Recovery Act-funded green job grants.
This report was in response to a request from the Honorable Charles E. Grassley, then
Ranking Member of the Senate Committee on Finance. Specifically, Senator Grassley
requested an audit of Recovery Act funds spent on green jobs, the definition used by
the Department of Labor for what constitutes a green job, and the number and duration
of the jobs created pursuant to the funds expended.

We reported that grantees might not be able to meet their planned expenditures or
goals for placing participants before grant periods expired. In response to our report,
ETA stated it expected grantees’ performance to increase significantly and all funds
would be expended by September 30, 2013. Since our report was issued, ETA
extended 46 of the 63 Pathways and ETP grant periods of performance set to expire in
January 2012 from 2 months to 1 year to allow grantees additional time to expend funds
and assist participants with training and employment. Furthermore, ETA extended 9 of
the 34 SESP grants set to expire in January 2013 by 5 to 6 months.

A description of the three competitive grant programs follows:

1. SESP is a training program designed to provide participants with technical and
   occupational skills training in the Green Job industry sector. On June 24, 2009, ETA
   issued the grant solicitation. Eligible SESP grant applicants included State
   Workforce Investment Boards (WIBs) located throughout all 50 States, the District
   of, Columbia, and U.S. territories as in Section VI.B.2.iv. WIBs were to deliver
   services to participants by working with regional Work Force Investment Boards, and
   One Stop Career Centers.

   On January 29, 2010, ETA awarded 34 SESP grants for approximately $190 million,
   with a grant execution period of 36 months that ended January 28, 2013. However,
   ETA has extended 9 of the 34 grants. The longest extension will end July 31, 2013.


                                           53                Recovery Act: Green Jobs Program
                                                                  Report No. 18-13-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


   The target population for SESP grants included: workers impacted by changes in
   national energy and environmental policy, individuals in need of updated, training
   skills related to the energy efficiency, in renewable energy industries sectors;
   Veterans, and unemployed individuals.

2. Pathways is a training program designed to provide participants with technical and
   occupational skills training in the Green Job industry sector, as a pathway out of
   poverty and into employment. On June 24, 2009, ETA issued the grant solicitation.
   Eligible Pathways grant applicants included National entities; or local entities that
   had experience serving the targeted population.

   On January 29, 2010, ETA awarded 38 Pathway grants for approximately $150
   million, with a grant execution period of 24 months that ended January 28, 2012.
   However, ETA has extended 27 of the 38 grants. The longest extension will end
   January 31, 2013.

   The targeted population for Pathway grants included: individuals 18 years old or
   older who were unemployed, high school dropouts, or had a criminal record, and
   disadvantaged individuals in areas of high poverty.

3. ETP is a training program designed to provide participants with technical and
   occupational skills training in the Green Job industry sector. On June 24, 2009, the
   grants were solicited. Eligible ETP grants applicants included private nonprofit
   organizations that were under one of two categories; National labor-management
   organizations with local networks; or Statewide/ local nonprofit partnerships that
   were expected to work with labor organizations, employers, and WIBs. The purpose
   of the program was to assist workers impacted by national energy and
   environmental policy changes.

   On January 15, 2010, ETA awarded 25 ETP grants for approximately $100 million,
   with a grant execution period of 24 months that ended January 14, 2012. However,
   ETA has extended 19 of the 25 grants. The longest extension will end January 14,
   2013.

   The targeted population for ETP grants included: workers impacted by changes in
   national energy and environmental policy, individuals in need of updated training
   skills related to energy efficiency in renewable energy industry sectors, veterans,
   and unemployed individuals.




                                            54                Recovery Act: Green Jobs Program
                                                                   Report No. 18-13-001-03-390
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objective, Scope, Methodology, and Criteria

Objective

We conducted this follow-up audit as part of our audit oversight responsibilities and in
response to a request for an update on our previous audit from the Honorable
Darrell E. Issa, Chairman, House Oversight and Government Reform Committee. Our
overall audit objective was to assess the impact of the Green Jobs training program by
answering the following questions:

1) Who was served and what training did participants receive?

2) What were the entered employment and retention outcomes for participants?

Scope

The scope of the audit was reported performance outcomes and expenditures for the
universe of 97 Green Job training grants totaling $435.4 million based on grantee data
as of June 30, 2012. Since grantees continue to update and report participant training
and employment activity, we used real-time data provided by ETA on August 21, 2012,
representing performance outcomes as of June 30, 2012. For employment retention, we
considered entered employment only for participants placed on or before December 31,
2011, since this measure requires a participant to be employed two quarters after the
employment date.

Grants were awarded in December 2009 and January 2010 with various end dates.
ETA extended 46 of the 63 Pathways and ETP grant periods of performance set to
expire in January 2012 from 2 months to 1 year. Furthermore, ETA extended 9 of the 34
SESP grants set to expire in January 2013 by 5 to 6 months. Currently, all grants are
scheduled to end by July 31, 2013.

We selected a statistical sample of 8 grants totaling $40.1 million and covering 9,510
participants served. The 8 sampled grantees included 3 SESP, 4 Pathways, and 1 ETP.
Fieldwork for sampled grants was conducted prior to the release of June 2012 data.
Therefore, for our sampled grants, we reviewed the March 31, 2012, training programs,
expenditures and performance outcomes. Onsite reviews were conducted for all
sampled grants.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. While grantee entered
employment and retention data was limited in some cases, we believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.
                                           55                Recovery Act: Green Jobs Program
                                                                  Report No. 18-13-001-03-390
                                            U.S. Department of Labor – Office of Inspector General


Methodology

Grants were reviewed to determine the impact of the Green Jobs training programs on
participants in preparing and placing them for jobs in the energy efficiency and
renewable energy sectors. For sampled grants, we reviewed quarterly financial and
performance reports to determine expenditures, types and lengths of training offered,
and performance outcomes met. Fieldwork was conducted at ETA headquarters in
Washington, DC and sampled grantee locations.

In performing the audit, ETA provided a detailed listing of all Green Job grant awards.
We performed a data reliability assessment to ensure we had complete and accurate
grant award data. To determine whether the data was reliable to select our sample, we
compared the total of all grant awards on the grant award listing provided by ETA to the
amount authorized by the Recovery Act. The difference in the amounts was for program
administration. We also reconciled sampled grant agreements to the listing provided by
ETA. We did not identify any differences. We concluded the data to be sufficiently
reliable for our purposes.

To identify and assess internal controls relevant to our audit objectives, we interviewed
relevant ETA National and regional personnel, grantee personnel and reviewed
available policies and procedures. In planning and performing our audit, we considered
internal controls of ETA’s system of assessing and communicating grantee information
by obtaining an understanding of the program's internal controls, to determine whether
internal controls had been placed in operation, assessed control risk, and performed
tests of internal controls in order to determine our auditing procedures for the purpose of
achieving our objectives. Our consideration of ETA’s internal control for communication
of grantee information would not necessarily disclose all matters that might be
significant deficiencies because of the inherent limitations in internal controls,
misstatement, or losses, non-compliance may nevertheless occur and not be detected.

To gain a better understanding of the impact of the Green Jobs training programs on
participants, from the universe of 97 training grants, we statistically selected a sample of
8 grants, totaling $40,086,204 million (9 percent). Grants were statistically selected
using a risk assessment that factored performance, expenditures, and correlation of
outcomes completed to expenditure rates to arrive at a final risk rating. The results of
the risk analysis were used to stratify grants into four strata based on meeting proposed
goals (3 strata), and the average cost per placement over $12,000 (1 stratum).
Subsequently, 2 grants were randomly selected from each stratum. From the sampled
grants, we randomly selected 463 participants to test from the sample universe using a
95 percent confidence level and +/- 10 percent sampling precision. While statistically
selected, the results of audit tests for the 463 participants selected at the sampled
grantees are only projectable to the sample of 8 grantees.




                                             56                Recovery Act: Green Jobs Program
                                                                    Report No. 18-13-001-03-390
                                          U.S. Department of Labor – Office of Inspector General



SAMPLED GRANTEES
                                                                            Total Participants
Grantee               Grant Type            Award         Sample Size                  Served
NARC                   Pathways       $ 7,994,999                  93                    1,284
Hawaii                     SESP          6,000,000                 72                    1,688
Iowa                       SESP          5,997,000                 56                    2,000
Washington State           SESP          5,973,635                 82                    1,975
Lehigh                 Pathways          4,000,000                 40                      660
CWA                          ETP         3,969,056                 85                    1,298
Mott                   Pathways          3,662,403                 18                      318
Providence             Pathways          2,489,111                 17                      287
TOTALS                                $ 40,086,204                463                    9,510

On-site reviews were conducted for all sampled grants. OIG staff conducted on-site
reviews at 2 of the 8 grantee locations. The remaining 6 locations were conducted by a
CPA firm under contract to the OIG. During onsite reviews, we reconciled costs and
performance information reported to the general ledger and other records provided by
the grantee. We validated performance information reported by each grantee to ETA for
the 463 sampled participants. An audit of expenditures was not performed.

Criteria

We used the following criteria to accomplish our audit:

   •   American Recovery and Reinvestment Act of 2009, dated February 17, 2009
   •   Green Jobs Act of 2007, dated July 27, 2007
   •   ETA’s Core Monitoring Guide
   •   Energy Policy Act of 2005, dated August 8, 2005
   •   Employment and Training Order No. 1-08
   •   Employment and Training Order No. 44-08
   •   SGAs for Energy Training partnerships (ETP)
   •   SGAs for State Energy Sector partnerships (SESP)
   •   SGAs for Pathways out of poverty (Pathways)




                                           57                Recovery Act: Green Jobs Program
                                                                  Report No. 18-13-001-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              58                Recovery Act: Green Jobs Program
                                     Report No. 18-13-001-03-390
                                    U.S. Department of Labor – Office of Inspector General


                                                                           Appendix C
Acronyms


ARRA           American Recovery and Reinvestment Act of 2009

CPR            Cardiopulmonary Resuscitation

CWA            Communication Workers of America National Education and
               Training Trust

ETA            Employment and Training Administration

ESL            English as a Second Language

ETP            Energy Training Partnership

Hawaii         Hawaii Department of Labor and Industrial Relations

Hazwoper       Hazardous Waste Operations and Emergency Response

HVAC           Heating, Ventilation and Air Conditioning

Iowa           Iowa Workforce Development

Lehigh         Lehigh Valley Workforce Investment Board

LEED           Leadership in Energy and Environmental Design

MSHA           Mine Safety and Health Administration

MSSC           Manufacturing Skills Standards Council

Mott           Mott Community College

NARC           National Association of Regional Councils

OIG            Office of Inspector General

OSHA           Occupational Safety and Health Administration

Pathways       Pathways Out of Poverty

Providence     Providence Economic Development Partnership

RRP            Lead Safety Renovation, Repairs and Painting

Recovery Act   American Recovery and Reinvestment Act of 2009

                                     59                Recovery Act: Green Jobs Program
                                                            Report No. 18-13-001-03-390
                                         U.S. Department of Labor – Office of Inspector General


SGA                Solicitation for Grant Application

SESP               State Energy Sector Partnership

TEGL               Training and Employment Guidance Letter

Washington State   Washington State Workforce Training and Education Coordinating
                   Board

WIA                Workforce Investment Act

WIB                Workforce Investment Board




                                          60                Recovery Act: Green Jobs Program
                                                                 Report No. 18-13-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix D
Glossary

Terms Related to Performance Reporting for Green Job Training Grants

Completer - Participants who successfully completed one or more industry and/or
occupational skills education and job training activities during the reporting period.
Participants can only be noted as completing an education/job training activity once.

Credential - An award that recognizes a person’s attainment of measurable technical or
occupational skills need to obtain employment or advance within an occupation. The
term encompasses educational certificates or degrees, occupational licenses,
registered apprenticeship, and industry-recognized certifications. Types of organizations
and institutions that issue credentials include, but are not limited to: state education
agency; accredited institution of higher education; professional, industry or employer
organization; ETA or state apprenticeship agency; public regulatory agency that issues
occupational licenses; Department of Veterans Affairs; Job Corps; and higher education
institutions controlled or chartered by Native American tribe or tribes. Participants must
successfully complete training to be counted as obtaining a credential.

Enrolled in training activities - Participant that begins receiving industry and/or
occupational skills education and job training activities for the first time during the
reporting period. This does not include those who receive only career awareness or
career exploration activities.

Entered employment - Participants who complete education/job training activities and
who obtain unsubsidized employment. Incumbent workers may be counted as “entered
employment” only if they enter a new position after program completion, even if the new
position is with the same employer.

Green industry sector - Energy efficiency and renewable energy industries identified in
WIA section 171 (e)(1) (B) (ii) and other “green” industries defined by Green Job training
grantee in their statement of work, and includes green occupations in other high growth
and emerging industries.

Incumbent worker - Any participant that is a part-time or full-time worker at time of
enrollment and who needs training to secure full-time employment, advance in their
careers, or retain their current occupations.

Participant - Individual that grantee determines is eligible and who receives a service
funded by the grant.




                                            61                Recovery Act: Green Jobs Program
                                                                   Report No. 18-13-001-03-390
                                            U.S. Department of Labor – Office of Inspector General


Retention - Of those participants reported as entered employment, the total number of
individuals employed in both the first and second quarters following initial placement.

Served - Eligible participants that receive a service during the quarterly reporting
period. “Service” includes, but is not limited to: education and/or training activity, case
management, and support services.

Training-related employment - Employment is considered training-related if the
position is for the same occupation or within the same industry as the training provided
or if the employer recognizes the credential received by the participant as a result of the
grant.

ETA’s Common Measures

Average earnings - Of those who are employed in their first, second, and third quarters
after exit, the average gross earnings from the second and third quarters after exit.

Entered employment rate - Of those individuals who were not employed at the time of
program participation, the percentage who were employed in the first quarter after they
exit (does not apply to incumbent workers).

Employment retention - Of those who were employed in their first quarter after exit,
the percentage employed in both the second and third quarters after exit. Includes all
participants employed in the first quarter after exit, regardless of their employment
status at enrollment.




                                             62                Recovery Act: Green Jobs Program
                                                                    Report No. 18-13-001-03-390
                               U.S. Department of Labor – Office of Inspector General


                                                                      Appendix E
ETA Response to Draft Report




                                63                Recovery Act: Green Jobs Program
                                                       Report No. 18-13-001-03-390
U.S. Department of Labor – Office of Inspector General




 64                Recovery Act: Green Jobs Program
                        Report No. 18-13-001-03-390
U.S. Department of Labor – Office of Inspector General




 65                Recovery Act: Green Jobs Program
                        Report No. 18-13-001-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              66                Recovery Act: Green Jobs Program
                                     Report No. 18-13-001-03-390
                                        U.S. Department of Labor – Office of Inspector General


                                                                               Appendix F
Acknowledgements

Key contributors to this report were Mark Schwartz, Cardelia Tsoi, Susan Rosenblum,
Mary Lou Casazza, Eliacim Nieves-Perez, Grover Fowler, Mitchell Goldberg, Reza
Noorani, Lawrence Alli, Andy Loomis, Lora Latterner, and Ajit Buttar.




                                         67                Recovery Act: Green Jobs Program
                                                                Report No. 18-13-001-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              68                Recovery Act: Green Jobs Program
                                     Report No. 18-13-001-03-390
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
